<html>
<title> - IRAQ: REPORT FROM THE FIELD</title>
<body><pre>[Senate Hearing 111-220]
[From the U.S. Government Publishing Office]



 
                                                        S. Hrg. 111-220

                       IRAQ: REPORT FROM THE FIELD

=======================================================================

                                HEARING

                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                         U.S. GOVERNMENT PRINTING OFFICE
54-367 PDF                     WASHINGTON: 2010


______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hill, Hon. Christopher R., U.S. Ambassador to Iraq, Department of 
  State, Washington, DC..........................................     5
    Prepared statement...........................................     8
    Responses to questions for the record from:
        Senator John F. Kerry....................................    28
        Senator Richard G. Lugar.................................    30
        Senator Robert P. Casey, Jr..............................    40
        Senator Jeanne Shaheen...................................    43
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    27

                                 (iii)

  


                      IRAQ: REPORT FROM THE FIELD

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:38 p.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Cardin, Shaheen, 
Kaufman, Lugar, and Corker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Today, we are honored to be joined by America's top 
diplomat in Baghdad, a long-time friend of this committee.
    Welcome back, Chris. We're delighted to have you back here 
and look forward to your testimony today.
    I also want to recognize the efforts of all of our very 
capable and, I would say, courageous diplomats who are serving 
in harm's way. They often don't get the credit that the 
soldiers on the front lines get, but in many ways they are 
equally at risk, and they do an extraordinary job, and they 
deserve our gratitude. And we extend it to them, today and 
always.
    Six and a half years after going to war, we are finally 
entering our Iraq endgame. By next August, consistent with the 
President's February speech at Camp Lejeune, American troop 
levels will be down to 50,000 or lower, barely a third of where 
we are today. A residual force will leave by December 2011, in 
keeping with the bilateral security agreement that provides the 
legal framework for our ongoing presence in Iraq. These 
redeployments are going to take place in a complex, evolving 
political and security landscape.
    When Iraqis go to the polls next January, they will elect a 
new Parliament and Government, and they're also scheduled to 
participate in a referendum to ratify the security agreement. 
If the Iraqi public rejects the agreement, then I believe we 
have no choice but to withdraw all of our forces as quickly as 
we can. This would complicate our redeployment and severely 
curtail our ability to assist the Iraqi security forces and 
government, but at this point I'm not sure how we would justify 
asking our soldiers to stay one day longer than necessary if 
they are formally disinvited by the Iraqi people.
    In a sense, the security agreement that the Bush 
administration negotiated with Prime Minister Maliki made moot 
the old ``should we stay or should we go'' argument. Even so, 
Iraq remains, frankly, a sort of Rorschach test for pundits and 
for policymakers. On the one hand, a person can look at the 
security gains since 2006, when sectarian violence threatened 
to tear Iraqi society apart, and conclude that Iraqis have 
stepped back from the brink. And it's true that, since the 
worst days of 2006 and 2007, violence has dropped by 85 
percent, even with the recent mass casualty attacks. American 
fatalities are at their lowest rate of the war. Al-Qaeda in 
Iraq, while still deadly, is only a shadow of its former self.
    There has been political progress, as well. In the January 
elections, unlike in 2005, sectarian and ethnic identification 
is unlikely to be the sole organizing principle of Iraqi 
politics. And I know that Ambassador Hill will share some 
thoughts with us today on that. The leader of the Anbar 
Awakening, a group that evolved out of the Sunni Arab 
insurgency, has been talking openly about a political alliance 
with Shiite Prime Minister Nouri al-Maliki. Such an 
announcement would have been unthinkable just 18 months ago. 
Other Sunni factions are exploring a coalition with the Kurds. 
Electricity production, which had long been stalled, quietly 
increased by 40 percent in the last year. That's the optimistic 
side of the ledger.
    But, one can also look at the same set of facts on the 
ground and come to a more complicated, perhaps even 
pessimistic, conclusion; namely, that removing an American 
presence that has been the lynchpin of the security 
improvements of the last few years would lead Iraq back into a 
downward spiral of communal violence. It is, frankly, too soon 
to know whether the rise in violence since American forces 
withdrew from Iraqi cities in June is an uptick or an upswing. 
Whether it is a blip or a trend, recent violence has been 
troubling. August was the deadliest month for Iraqis in more 
than a year, and the devastating Black Wednesday bombings 
against the Iraqi Foreign and Finance Ministries last month 
were a stark reminder that forces opposed to reconciliation 
remain capable of devastating attacks that could alter the 
country's direction. The attacks were also a blow to the Iraqi 
people's confidence in their own security forces.
    And, of course, Iraq's problems don't end there. Arab-
Kurdish tensions remain unresolved. Corruption is rampant. 
Millions of Iraqi refugees and internally displaced persons 
remain far from home, waiting to be resettled. Iraq's relations 
with its neighbors are volatile. These are really just a few of 
the many challenges that Iraq is going to face in the coming 
months.
    So, what's it going to be? Which is it, in a sense? Is Iraq 
beginning to unravel again, or are these just the inevitable 
bumps on the road toward returning responsibility for Iraq to 
Iraqis? What will happen after we leave? We don't have 
definitive answers to these questions, but, as one who has long 
advocated the responsible redeployment of American troops from 
Iraq, I believe the President has made the most of the 
difficult situation that he inherited there.
    At this point in our mission, America must approach Iraq 
with a dose of humility. There are limits to what we can 
accomplish there, and we may be approaching those limits.
    As Iraqi politics enter an election season and our troops 
leave the cities, we no longer have the ability to dictate 
outcomes, if we ever did. While the American people stand ready 
to help Iraqis, it is time to take the training wheels off and 
let the Iraqis define their own future.
    The task ahead as we drawdown our forces is to provide a 
nudge here and there to ensure that Iraq doesn't crash when the 
wheels do come off. In the last year or so, the Maliki 
government has been increasingly keen to signal that it is in 
control and capable of maintaining security. We should 
encourage this. Iraqis' ability to keep their own house in 
order is the key to leaving behind a stable Iraq.
    In the meantime, perhaps the tragic Black Wednesday 
bombings will persuade Iraq's leaders to take a more honest 
look at their capabilities and needs. Today, Iraqi politics 
have room to breathe in ways that they simply didn't have in 
2006 or 2007. But, the real test remains, not just for Prime 
Minister Maliki, but for all of Iraq's senior leaders. Are they 
willing to make the political compromises necessary to forge a 
sustainable political compact that provides the foundation for 
a stable Iraq? The answer will go a long way toward determining 
Iraq's future.
    Mr. Ambassador, Iraq today I think, as evidenced here in 
this room to some degree, has become the forgotten war--
whereas, Afghanistan was, previously--largely pushed off the 
headlines and out of the evening news. But, that doesn't make 
your task any easier; and I don't need to be the one to tell 
you that. The families of the 130,000 troops and 1,000 
diplomats in Iraq need no reminder that their loved ones remain 
in harm's way. Just 2 days ago, four American solders were 
tragically killed.
    Afghanistan will receive a lot of attention in the coming 
weeks, including by this committee, as it should; but, I hope 
this hearing will help serve as a reminder that, while it is 
coming to a close, our mission in Iraq is not yet over.
    I look forward to hearing your testimony, and I thank you 
for making the trip back to Washington to be with us today.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Welcome back to the committee, Ambassador Hill.
    Two months ago, I had the privilege of meeting with Prime 
Minister Maliki in Ankara, Turkey, as he led the Iraqi 
delegation at the signing of the Nabucco Pipeline Treaty. He 
predicted that exports from his country would fill half that 
pipeline. Two weeks later, the Prime Minister met with this 
committee, here in the Capitol, presenting a confident face to 
Members as we questioned him on everything from Iran and Arab-
Kurdish relations to refugee returns and the readiness of his 
security forces and his government to deliver for the Iraqi 
people.
    In the international arena, Mr. Maliki is traveling 
extensively, making the case that his country is ready to 
rejoin the community of nations, to emerge from chapter 7 
status, and carry on responsibly as a mature state.
    Domestically, as he prepares for the January 16 elections, 
he was projecting calm confidence and full control of all 
quarters, asserting Iraqi sovereignty and advancing an Iraqi 
first agenda. However, the devastating car-bomb attacks inside 
the Baghdad Security Zone, 3 weeks ago, which killed scores and 
injured hundreds more, stripped off that confident veneer. The 
coordinated explosions, which targeted the Finance and Foreign 
Ministry buildings, rattled the government and the Prime 
Minister, who came out pointing fingers and second-guessing 
decisions to bring down security barriers in parts of Baghdad. 
Senior members of the government even questioned the reliance 
on U.S. forces for security. The incident showed that a smooth 
glide path for Iraq is very unlikely.
    There are positive signs in Iraq, but the political 
accommodation sought by the United States has not come about, 
despite the political space that was created by the surge and 
other factors. The central government remains weak, and ethnic 
and sectarian divisions remain. It appears that influence and 
control are achieved by the traditional means, even while the 
government muddles through day-to-day operations.
    For our own part, serious questions remain about our 
policies going forward and our strategy. The President and the 
Vice President continue to speak about troops coming home at 
the end of 2011, but we do not have a clear understanding of 
how that withdrawal will occur under optimal conditions, much 
less worst-case scenarios.
    Metrics coming out of MNFI and Embassy Baghdad point to 
positive directions. If these are reliable, that would be a 
welcome change from the fragile and reversible situation of 
earlier years.
    Today, Ambassador Hill, from you we need realism, not the 
naive opportunism of the Coalition Provisional Authority days, 
to assess whether our strategic foundation is firm.
    Key questions for you today should include, first: In the 
last few years, many critics charged that we were taking our 
eyes off the ball with respect to Afghanistan. Are we at risk 
of taking our eyes off the other ball as the attention and 
resources shift from Iraq? Has planning for withdrawal and 
normalization diverted attention from tasks and priorities that 
lay ahead in Iraq, particularly beyond the January election?
    Second, are we developing lasting relationships and 
institutions? Having moved from the construction phase, it's 
not as easy to see progress when buildings and power generators 
are not the product. What programs are key to ensuring Iraq 
does not backslide?
    And third, what and who will fill the power void as U.S. 
forces withdraw, first from cities, but progressively from the 
entire country? The ``how'' of withdrawal is even more 
important than the ``when.''
    And fourth, all of the Kurdish region has been relatively 
calm. The International Crisis Group recently warned that a, 
``destructive political conflict,'' could arise over Kirkuk as 
Iraq Army and Kurdish forces are arrayed in opposing 
formations. Can this confrontation be resolved? And what are 
the consequences if it is not?
    And fifth, are Iraq's neighbors playing constructive roles? 
What about Iran?
    And sixth, as Prime Minister Maliki seeks reelection and 
put together a coalition, is there a chance that the platform 
will develop in a way that further breaks down sectarianism?
    And finally, do we and the Iraqis see eye to eye on the 
priorities going ahead? Are the policy foundations firm? Are 
you receiving the clarity of directions you need from 
Washington?
    As we work to complete appropriation bills for 2010, the 
answers to these basic questions are essential to the work of 
the Congress and to this committee. As much as we'd like you to 
be the one with a crystal ball to tell us what things will look 
like at the end of 2011, it's more important that you give us 
your best sense of how things are progressing toward that date, 
and how things stand today.
    We thank you so much for coming.
    The Chairman. Thank you very much, Senator Lugar.
    Ambassador, we look forward to your testimony. Thank you 
for being here with us today.

STATEMENT OF HON. CHRISTOPHER R. HILL, U.S. AMBASSADOR TO IRAQ, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Hill. Thank you very much, Chairman Kerry.
    I would like to--I have a statement which I'd like to----
    The Chairman. We'll put the full statement in the record as 
if read in full, and if you'd summarize, that would give us 
more time to have a good dialogue. Thanks.
    Ambassador Hill. Very good.
    Chairman Kerry, Senator Lugar, members of the committee, 
thank you very much for the opportunity to speak today about 
our opportunity in Iraq as we transition from a military-to-
civilian-led mission and about our efforts to develop a strong, 
long-term relationship with Iraq.
    This is the start of a 12-month period at the end of which 
all combat forces will be withdrawn. We have huge interests in 
capitalizing on the opportunity in Iraq. Iraq is at the center 
of the Middle East, bordering key countries like Saudi Arabia, 
Iran, and our NATO ally, Turkey. It is the border between 
Kurdish lands and Arab lands. It is really where Sunni meet 
Shia. It is a very central part of the Middle East, and a 
country in which we should have enduring interests. For the 
first time in decades, in fact, Iraq has a chance to become an 
engine for regional stability and regional economic growth 
rather than a source of regional tension and dispute.
    A convergence of events present the possibility of genuine 
advancement. Our civilian effort will help foster security 
through active diplomacy to contain and begin to resolve 
internal disputes, and to foster longer term stability by 
showing the Iraqis how to build a market-oriented economy and a 
genuinely representative and accountable government. Over time, 
as we make progress in the economic and political goals, we 
will see a significant reduction in our civilian presence, both 
in the province and at the Embassy in Baghdad. But, for now, 
during this transition, we intend to actually strengthen our 
civilian presence as our military begins to ramp down. We need 
to show that we are taking over some of the tasks that our 
military is and has been engaged in, and that will mean an even 
strengthened civilian operation, after which we look to see the 
civilian effort begin also to ramp down.
    Mr. Chairman, Iraq has, indeed, suffered a series of 
attacks over the last weeks, including, actually, several on 
minority communities. Particularly horrifying were, indeed, the 
attacks on the Iraqi Foreign and Finance Ministries on August 
19. But, in fact, the reality is that Iraqi people have stood 
firm and rejected retribution, and so far they have prevented 
the beginning of a new cycle of violence. This doesn't mean 
that these attacks don't need to be taken seriously; they need 
to be taken with great seriousness. But, we have found that the 
Iraqi people are reacting well to this. We have found that the 
Iraqi security forces are reacting well to this, and we believe 
that this is really quite a change from in the past.
    There's been some good news in Iraq, as well. They've 
staged two rounds of successful elections--the provincial 
council elections in January and elections in the Kurdistan 
Regional Government, just a couple of months ago, in July. In 
both cases, the voting was free, fair, and peaceful.
    Today, there are new provincial councils operating, and 
they know that the voters will have an opportunity to judge 
their performance.
    Preparations have begun for national elections, scheduled 
in January 2010. The Council of Representatives is working on 
an election law to govern the conduct of elections. Iraq's High 
Electoral Commission has begun to register voters and political 
parties are negotiating coalitions. We'll continue to work with 
the Iraqi leadership to ensure that this process is completed.
    In the economic area, Iraq's economy remains very much a 
work in progress. It's beset by drought, inadequate reforms, 
falling oil prices earlier this year, which, indeed, hurt the 
budget. But, as production and export levels have begun to 
increase and oil prices have recovered in recent months--Iraq's 
budget has improved somewhat. Nevertheless, we have many near-
term concerns about the fiscal stability. Iraq is going to have 
to work very closely on a standby agreement with the 
International Monetary Fund, and we're pleased that it is doing 
so.
    It also needs to undertake economic reforms which will lay 
the groundwork for greater help from the World Trade 
Organization. We can be helpful. But, on the economy, the time 
has come, really, for Iraq to step up to the plate. There is no 
question that Iraq has the resources to be stable and 
successful, but it needs to better mobilize these resources, 
starting with oil.
    The Iraqi people are blessed with enormous oil reserves, 
estimated to be the No. 3 country in the world. And on June 30, 
the Iraqi Ministry of Oil held the first bid round in Iraq's 
history, with 32 international oil companies competing for six 
oil fields. One field was awarded. It is a major field and if 
it lives up to its expectations, it's possible that Iraq's oil 
exports could actually double, from this one field alone. Iraq 
needs to do more in this area. We need to work closely with 
Iraqis, because we need to see, increasingly, Iraq paying for 
its own bills as we ramp down our bilateral assistance.
    Iraq needs to work on a more diversified economy, and we 
are very pleased that Prime Minister Maliki and we have worked 
together on a United States-Iraq business and investment 
conference, to be held on October 20, here in Washington. Two 
hundred representatives from Iraq will attend the conference. 
It will be a delegation of senior government officials. And we 
hope that this conference, together with the discussions with 
high-level Iraqi officials and a dialogue of economic 
cooperation, will really act to spur investment in Iraq.
    But, beyond some of these economic issues, I want to stress 
that Iraqi issues do not exist in a vacuum. A look at the map 
shows that Iraq is located in the center of a complex 
neighborhood. Iran's influence is very much a reality in Iraq. 
We recognize that elements of Iran's influence, such as trade 
and religious tourism, can have a positive impact. But, too 
often, Iran has played a negative role, meddling in Iraq's 
internal interests and training violent militias. With Syria, 
tensions persist between Baghdad and Damascus. Turkey has 
special interests in the north. Iraq's history with Kuwait is 
difficult. And the problems reach back beyond 1990.
    Against this backdrop, there's a fundamental question. Is 
the Sunni Arab world prepared to make room for an Arab state 
that in all probability will be led, though not dominated, by 
the Shia? How Iraq deals with its neighbors will define what 
kind of region emerges in the coming year. We--in coming 
years--we need to help Iraq find solutions to some of these 
longstanding regional issues.
    I think our diplomacy in Iraq, internally in bilateral 
terms but also multilaterally, will have a vital role to play. 
We've expanded our efforts to facilitate, first containing, and 
then beginning to resolve, disputes in northern Iraq between 
Kurds and Arabs. I was just in Iraqi Kurdistan over the weekend 
discussing how we can move forward on issues like developing 
the vital oil sector in a way that benefits all Iraqis, and how 
to begin to address the thorny dispute in Kirkuk. We need to 
begin the process of getting various ethnic and sectarian 
communities engaged in settling their disputes. The U.N. has an 
important role here, and we want to work very closely with the 
U.N.
    Our diplomatic track is designed to fully complement our 
military efforts to foster cooperation between Kurdistan 
regional security forces--that is, the Peshmerga--and those of 
the central government in Baghdad. And General Odierno has been 
very much engaged in this area.
    I think we need to understand that the first milestone of 
the security agreement--that is the--removing United States 
forces from the cities and villages in Iraq on June 30--turned 
out to be a very important day. It was more important than many 
people thought, I think, because many of the Iraqi people 
looked to the question, Would the United States fulfill its 
obligations under the security agreement? And I think the 
overwhelming majority of Iraqi citizens do believe we have done 
just that.
    This date has turned out to be a very important date, 
because Iraqis now see that the United States can be trusted in 
the agreements we sign. And I think the Iraqis are now very 
interested in moving on to see if we can implement the 
Strategic Framework Agreement. The Strategic Framework 
Agreement, a sort of companion piece to the Security Agreement, 
lays out all the elements of a long-term relationship with 
Iraq. And this is the agreement that we very much want to 
follow and to guide us in the years ahead.
    To be sure, the transition to a civilian-led mission 
presents many challenges for us. We need, first of all, to make 
sure we have the funding to take up tasks that our military has 
been providing in the past. And the State Department has been 
working very hard to make sure that we have that funding. There 
are elements of assistance--for example, police training--that 
the military has been engaged in. These will be transferred to 
the State Department, and we are very much on these issues.
    I think this Strategic Framework Agreement that we are 
pursuing was very much the focus of Prime Minister Maliki's 
visit to Washington in July. He and Secretary Clinton convened 
a second meeting of the Higher Coordinator Committee. We've 
established joint coordination committees in a number of areas 
and will continue to be very much engaged on these issues.
    Mr. Chairman, with those comments of our overall trends in 
Iraq, I stand ready to hear your questions.
    Thank you.
    [The prepared statement of Ambassador Hill follows:]

  Prepared Statement of Hon. Christopher R. Hill, U.S. Ambassador to 
              Iraq, U.S. State Department, Washington, DC

    Chairman Kerry, Senator Lugar, members of the committee, thank you 
for the opportunity to speak today about our historic opportunity in 
Iraq as we transition from a military to civilian-led mission, and 
about our efforts to develop a strong, long-term normalized 
relationship with Iraq. Such a relationship could serve as a model for 
how we approach the aftermath of other conflicts, based on the 
strategic interests of both states.
    We have huge interests in capitalizing on this opportunity. Iraq is 
at the center of the Middle East, bordering key countries like Saudi 
Arabia, Iran, and our NATO ally, Turkey. For the first time in decades, 
Iraq has a chance to become an engine for regional stability and 
regional economic growth rather than a source of regional tension and 
dispute.
    A convergence of events presents the possibility of genuine 
advancement. Our military is in the process of drawing down combat 
forces and transitioning to a predominantly advise-and-assist role. Our 
civilian effort, under my direction, will help foster security through 
active diplomacy to contain and begin to resolve internal disputes and 
to foster longer term stability by assisting the Iraqis in building a 
market-oriented economy and a genuinely representative and accountable 
government. Over time, as our programs make progress on these economic 
and political goals, we will significantly reduce in our civilian 
presence both in the provinces and at the Embassy in Baghdad.
                         reality on the ground
    Iraq has suffered a series of attacks over the past several weeks, 
including several on minority communities. Particularly horrifying were 
the attacks on the Iraqi Foreign and Finance Ministries on August 19. 
The reality, however, is that the Iraqi people have stood firm and 
rejected retribution and a new cycle of violence such as the one that 
brought Iraq to the brink in 2006.
    This does not mean we don't take the attacks seriously. We do. Our 
civilian and military personnel have been cooperating extensively with 
Iraqi counterparts on investigations, security, and medical treatment.
    There has been some good news. Iraq staged two rounds of successful 
elections this year--the provincial council elections in 14 of Iraq's 
18 provinces in January, and elections for the Kurdistan Regional 
Government in July. Today, new provincial councils operate, aware that 
voters will have an opportunity to judge their performance in the next 
elections. Preparations have begun for the national elections scheduled 
for January 2010--the Council of Representatives is working on an 
elections law to govern the conduct of the elections, Iraq's High 
Electoral Commission has begun to register voters, and political 
parties are negotiating coalitions--several of which are likely to be 
cross-sectarian. We will continue to work with the Iraqi leadership to 
ensure that this process is completed.
    Iraq's economy remains a work in progress, beset by drought, 
inadequate reforms and falling oil prices earlier this year, which hurt 
the budget. As production and export levels have increased and oil 
prices recovered in recent months, Iraq's budget situation has improved 
somewhat. Nevertheless, we have concerns about near-term fiscal 
stability in Iraq. The Iraqi Government must continue to pursue a 
responsible fiscal policy, which includes negotiating another Stand-By 
Arrangement with the International Monetary Fund. It also needs to 
undertake the economic reforms necessary to join the World Trade 
Organization and integrate into the global trading system. We stand 
ready to broaden our economic cooperation, and toward this end, we look 
forward to the Iraqi Government's ratification of several pending 
bilateral cooperation agreements. We can be helpful, but on the 
economy, the time has come for the Iraqis to step up to the plate.
    The Iraqi Government has the resources to become stable and 
successful but it needs to better mobilize those resources, starting 
with oil. On June 30, the Iraqi Ministry of Oil held a bid round with 
32 international oil companies competing for six oil fields and two gas 
fields, one field was awarded. It is Iraq's largest producing oil 
field, one that could boost considerably Iraq's oil production. A 
second bid round, planned for December, will include larger fields that 
have been minimally developed. In the runup to the next bid round, we 
are urging the Iraqis to recognize the opportunity it presents. This 
round needs to be a success, and we have discussed intensively with the 
Iraqi Government how it can make its investment climate in the sector 
more attractive. Provided the Iraqis can also reach consensus on 
hydrocarbons legislation, and on revenue-sharing, it could be a real 
game-changer for the country.
    Nonetheless, long-term growth and stability will require a more 
diversified economy with greater foreign direct investment. The Prime 
Minister says that his government will take measures to address legal 
and regulatory hurdles to investment. There are many hurdles, the 
legacy of Baghdad's adherence to socialist ideology for decades lingers 
in the minds of many Iraqi's, who remain suspicious of free trade, 
foreign investment, and other reforms needed to open the economy and 
spur employment. We review these issues in detail with the Iraqis, 
ranging from the aviation sector to agriculture. We will keep urging 
progress on market reforms. During his July visit to the United States, 
Prime Minister Maliki announced plans for the first United States-Iraq 
Business and Investment Conference to be held October 20 and 21 here in 
Washington. About 200 representatives from Iraq will attend the 
conference, led by a delegation of senior government officials. 
Preceding the conference, on October 19, we will host several high-
level Iraqi officials for the Dialogue on Economic Cooperation, a 
bilateral economic policy discussion where we will highlight steps the 
Iraqis can and should take to spur investment. These events will be 
significant steps as we help Iraq attract foreign investors and stand 
up a market economy. A market economy generating sustained economic 
growth and increased employment opportunities will weaken insurgent and 
extremist networks. Were Iraq to rebuild its infrastructure and economy 
on the scale that its neighbors in Saudi Arabia and the gulf did in the 
1970s and 1980s, it would be an engine that would help the regional 
economy and indeed that of the world.
    Beyond bilateral and economic issues, I want to stress that Iraq 
issues do not exist in a vacuum. A look at a map shows clearly that 
Iraq is located at the center of a complex neighborhood. Iran's 
influence is a reality. We recognize that elements of Iran's influence, 
such as trade and religious tourism, can have a positive impact on 
Iraq's economy. Too often, however, Iran has played a negative role, 
meddling in internal politics or arming and training violent militias. 
With Syria, tensions persist between Baghdad and Damascus. Iraq's 
history with Kuwait is difficult--and the problems reach back beyond 
1990. Against this backdrop, there is a fundamental question: Is the 
Sunni-Arab world prepared to make room for an Arab state that will be 
led by a government in which Shia play a leading role? How Iraq deals 
with its neighbors will define what kind of region emerges in the 
coming years. We need to help Iraq find solutions to longstanding 
regional disputes. We want to see an Iraq that is at peace with its 
neighbors, one that can be an anchor of stability and prosperity, where 
the chances of having to put our excellent servicemembers back at risk 
are small.
    Iraq still faces internal threats to its stability. The extreme 
Sunni-Shia violence of 2006-2007 has abated, thanks in part to some of 
our efforts, such as enlisting the help of the Sons of Iraq. In the 
bombings we have seen in recent months we detect an effort by al-Qaeda 
in Iraq to rekindle that violence, but to the great credit of the Iraqi 
people, they have not risen to the bait. At the same time, there is a 
risk of escalation in tensions between Arabs and Kurds around the 
disputed areas in northern Iraq. And we are working with Iraq to 
address the return of refugees and internally displaced persons in ways 
that will help avoid instability and contribute to Iraq's development.
    Our diplomacy has a vital role to play. I have expanded our effort 
to facilitate first containing, and then beginning to resolve, disputes 
in northern Iraq between the Kurds and the Arabs. I was just in Iraqi 
Kurdistan discussing how we can move forward on issues like developing 
the vital oil sector in a way that benefits all Iraqis and also how to 
address the thorny dispute in Kirkuk. We need to begin the process of 
getting various ethnic and sectarian communities engaged in settling 
their disputes through discussion. The U.N. has an important role here. 
All of us want to ease tensions and cool the emotional temperature so 
individuals and families can start to build stable lives--and develop 
the economy. In this context, our diplomatic track is designed to fully 
complement our military's effort to foster cooperation between 
Kurdistan regional security forces and those of the central government 
in Baghdad.
                         changing role in iraq
    A major visible sign of how the times are changing was the drawdown 
of combat troops from cities and villages on June 30. The President has 
made clear our intention to drawdown all combat troops by August 31, 
2010, and drawdown all U.S. forces from Iraq by the end of 2011. As the 
military draws down and the role of the State Department increases, we 
are working with General Odierno and the rest of the military and other 
civilian agencies to make the transition from a military-led effort to 
one led by civilians as seamless as possible.
    In general, we are not seeking to replicate the programs of the 
military but instead to transition to a more normalized relationship. 
This is what I believe we want as a country and this is what the Iraqis 
tell us they want as well.
    Helping Iraqis make their country secure will require that we 
continue to partner closely with Iraqi military and police. The 
military has had the lead role in supporting the development of a 
capable and nonsectarian Iraqi security forces and we have seen huge 
gains in terms of Iraqi forces' capabilities and cohesion, although the 
Iraqi police in particular still have far to go in terms of 
establishing a fully professional and self-sustaining force. As the 
military prepares to drawdown all its forces in a little over 2 years, 
it is our intent that the State Department take over the lead on police 
training. Our programs will focus more selectively on the higher order 
skills that the Iraqi police now need.
    All of these issues have a political dimension; solutions that 
focus on security alone can only go so far. Through the strong civilian 
effort that President Obama has committed to, we will step up when our 
Iraqi counterparts ask for our help on issues that are important to us. 
Our assistance will be useful in settling disputes, supporting the 
national elections, building more transparent and professional state 
institutions, and creating conditions that minimize the likelihood of 
conflict. For example, Secretary Clinton announced $100 million in new 
assistance to support the return and reintegration of displaced Iraqis 
after her July 24 meeting with Prime Minister Maliki.
    The transition to a civilian-led mission presents other challenges 
for us as well. Some have already become apparent. To make sure our 
diplomats and other staff are active beyond the Embassy walls, we are 
moving our civilians around Iraq more than ever. Our civilians in 
Baghdad and in the provinces are slowly but noticeably making progress 
helping Iraqis better manage Iraqi affairs and Iraqi projects in areas 
like education, economic issues, energy, and transportation.
    For example, international airlines like Gulf Air are starting 
service to the new airport in Najaf--a project we didn't pay for but 
for which we provided expert advice through our mission staff in 
Baghdad and the PRT. That is the model of how we will operate in the 
years ahead. Najaf, one of the most important cities for Shia Muslims, 
was once wracked by violence and terrorism at the hands of Sunni 
extremists and Shia militias. Now it is generating many investment 
projects in religious tourism and education, with the airport a major 
factor. This is the kind of growth and stability that we want to see 
elsewhere in Iraq.
                     strategic framework agreement
    As our relationship with Iraq transitions, the SFA will become the 
framework for our bilateral relationship. The SFA outlines areas of 
cooperation and allows us to continue our civilian programs that 
address the concerns of the GOI and the U.S. goal of a sovereign, 
stable, and self-reliant Iraq. Under the SFA, we are stepping up our 
work in areas ranging from educational exchanges, to the environment, 
to economic development and trade promotion; all to capitalize on this 
opportunity to make Iraq genuinely stable and secure. Najaf's airport 
is but one small example of how we do this. The broad plan is detailed 
in our Strategic Framework Agreement for a Relationship of Friendship 
and Cooperation between the United States of America and the Republic 
of Iraq that lays the basis for a long-term partnership.
    Our Iraqi colleagues are keen partners in implementing the 
agreement and this was a focus of Prime Minister Maliki's recent visit. 
On July 24, Secretary Clinton and Prime Minister Maliki convened the 
second meeting of the Higher Coordinating Committee under the Agreement 
to review the progress made since it entered into force in January.
    The Agreement calls for the establishment of Joint Coordination 
Committees, as necessary, to execute and oversee implementation. To 
date, four such working groups have convened.
    The Committee on Services and Information Technology provides a 
structure for cooperation on capacity-development and institution-
building, an area where improvement would yield great benefits for 
Iraqi society. Our programs work with Iraqi ministries and executive 
offices to develop civil service skills and ministry leadership. For 
example, we have helped our Iraqi counterparts improve electricity 
service delivery and have provided intensive training on specialized 
medical treatment for Iraqi doctors.
    The Committee on Economic and Energy Cooperation has overseen 
technical assistance and training for the Ministry of Oil on 
contracting, licensing, the tender process, and dispute mitigation. The 
U.S. Commercial Service has made it possible for eight delegations of 
Iraqi businessmen to attend trade shows in the United States. And we 
are working with the Government of Iraq and the World Bank to develop a 
regulatory framework for, and to invest in, microfinance institutions 
currently operating in Iraq.
    The Committee on Law Enforcement and Judicial Cooperation focuses 
on strengthening the judicial and corrections systems. There are courts 
operating now in parts of Iraq where there used to be none, such as the 
new one in Ramadi that we helped build in once violence-wracked Anbar. 
International human rights organizations such as Human Rights Watch 
have acknowledged that the treatment of detainees in Justice Ministry 
prisons--whose guards we train--has improved. Meanwhile, legal clinics 
and judicial training we provide has reduced the time prisoners wait to 
get trials. Better detention conditions and faster resolution of cases 
takes some of the edge off of sectarian divisions and ultimately 
reinforces stability in Iraq.
    Finally, the Committee on Education, Cultural, and Scientific 
Cooperation provides an umbrella for our many Fulbright and 
International Visitors Programs, which bring scholars and experts to 
the United States for long- and short-term study. Iraq recently 
committed $2.5 million to the Fulbright program, making it the largest 
Fulbright contributor in the Middle East. We are also partnering with 
Prime Minister Maliki in his ambitious program to send 10,000 young 
Iraqis for university studies abroad. I mentioned the problems that 
hinder Iraq's economy because of discredited socialist ideologies and 
practices. Iraqis--both the people and the government--hunger for 
better education and, in the end, only better educated graduates can 
ensure that Iraq is prosperous and stable in decades to come.
    We are not alone. United National Assistance Mission for Iraq or 
UNAMI has ambitious plans. Our NATO allies are helping with training 
programs. The World Bank and International Monetary Fund are 
contributing as well to our shared objectives in Iraq. But all of them 
need to do more.
                   elections and government formation
    Under the Strategic Framework Agreement we have agreed to work with 
the Government of Iraq to support and strengthen Iraq's democracy and 
democratic institutions on a purely nonpartisan basis.
    A legitimate national elections process and subsequent government 
formation is key to improving stability. The successful conduct of the 
provincial council elections in 14 of Iraq's 18 provinces in January 
was encouraging, and we hope to help the Iraqis build on that success.
    The national elections and subsequent government formation carry 
high stakes for many political actors, successful election and a smooth 
transition to the new government are critical for Iraq's developing 
democracy and its people. What is happening now is that various 
politicians are reaching into other communities in an effort to put 
together a coalition they think could win in January. This is 
heartening. But politicking and jockeying for position will also 
continue following the elections, when Iraq's elected leaders will have 
to work together to create a government. This may be a long process, 
but it is imperative that we show our continuing support for Iraq's 
democracy. Our focus is on building a long-term relationship with Iraq 
that can survive the uncertainty surrounding elections.
          our continuing presence and activities on the ground
    As the United States-Iraq relationship continues to change, our 
civilian presence and programs will necessarily shift along with it. In 
Baghdad as the relationship between the U.S. mission and the Iraqi 
Government continues to normalize, the Embassy will be rightsizing it's 
presence down from the extraordinary staff levels that were required to 
support the interim government a few years ago. In provinces, as our 
military presence draws down, the number of PRTs will decrease too, but 
we want to maintain significant engagement in important provinces. 
Consistent focus on key provinces could help prevent violence and 
instability that may spread to other areas. We are currently engaged in 
a deliberative process within the administration on the future 
footprint of the U.S. mission in the provinces and we will be happy to 
update you as we move forward.
    The intrepid men and women serving in our PRTs have amassed a 
record of achievement that all of us can be proud of. They have 
contributed significantly to the decline in violence in most parts of 
Iraq; helped prepare for provincial and now national elections; 
provided capacity-building assistance for provincial officials; spurred 
good governance and reconciliation; strengthened civil society and much 
more. More importantly, it is a record of achievement that local Iraqi 
communities are eager to build on.
    The transition from a military- to civilian-led mission will 
involve significant programmatic and management challenges. We are 
planning for the civilian-led programs to follow on from military ones 
that have yielded successes and will need to be continued, such as 
police training. An effective transition from a military-led presence 
to a civilian-led presence will require strong civilian leadership in 
Baghdad and the provinces. Part of the transition will involve making 
necessary, sometimes tough, decisions about the types and degrees of 
programs that will be critical for us to continue in order to secure 
and build on the achievements made to date. As the State Department 
takes the lead from the Defense Department, we will be developing a 
resource plan that enables us to carry out the mission in Iraq.
    We will align our assistance efforts, both in Baghdad and in the 
provinces, toward the goals most important to achieving economic 
growth, stability, and ultimately a secure Iraq. Ambassador Pat Haslach 
is coordinating our foreign assistance programs in Iraq, as well as the 
transitions those programs will undergo as the military presence draws 
down. Helping develop capacity in Iraq's government institutions, 
assisting women and widows who have suffered disproportionately from 
the violence, and aiding returning refugees and internally displaced 
persons seeking to reintegrate into Iraqi society are some of the 
important aspects of our activities on the ground in Iraq. Our programs 
also support the President's Cairo initiatives--improving economic 
development and access to opportunities, education exchanges, and so 
on--and make it possible for Iraqis to participate in American programs 
with citizens of other countries in the region.
    Looking out longer term, we can see where our civilian effort 
reaches its objectives. We will have finished training programs and 
helped the Iraqis establish sustainable economic growth, and stable 
governance and management systems. We can then continue to ramp down 
our effort. Already the Embassy is planning for a gradual reduction in 
the number of agencies and American personnel both in the provinces and 
at the Embassy starting in 2010.
                               conclusion
    We are at a new stage in our relationship with Iraq. We must 
maintain strong engagement to prevent backsliding and build close and 
constructive ties. Such ties are squarely in our interests, in Iraq's 
interests, and in the interests of the region.
    An Iraq focused on economic development will want stable, 
predictable relations with its neighbors.
    An Iraq where different ethnic and sectarian groups work together 
to solve common problems will improve security--and free people to get 
down to building businesses, not bombs.
    An Iraq where people go safely to the polls and have a say in the 
decisions that affect their lives will make for a better future. To 
paraphrase a former mayor of New York, issues-based politics will help 
drive home the point that there is no Shia or Sunni way to clean the 
streets.
    The Strategic Framework Agreement provides a solid foundation for 
civilian engagement and cooperation. We hope this will help us develop 
that relationship. As we transition responsibilities from military to 
civilian agencies, we will need your support to make sure that our men 
and women on the ground--military and civilian--have the resources they 
need to do their jobs and cement the new phase of our relationship with 
Iraq.
    Our help is still essential on these fronts. Iraq's successful 
transformation will be the ultimate justification for the sacrifice of 
the American people, especially our servicemembers.
    The August 19 bombings and other recent attacks were awful. But 
they have not discouraged the Iraqi people and government from working 
toward a better future, and they should not discourage us from 
assisting them, where appropriate, in that endeavor.
    In closing, I want to thank all the men and women who have served 
in Iraq, both military and civilian. They have done a truly brilliant 
job in a very different type of war. My thoughts are with those we have 
lost, those who have suffered serious injuries, and their families. We 
will continue to be indebted to them for their service, we will never 
forget their sacrifices, and we thank them all for their service.

    The Chairman. Thank you very much, Ambassador.
    We're going to do a 7-minute round, since we have a number 
of Senators here, and try to expedite.
    You mentioned, in your testimony, a strengthened civilian 
effort. What do you mean by that? We have the largest Embassy 
anywhere in the world. Are you envisioning a larger----
    Ambassador Hill. Yes.
    The Chairman [continuing]. Civilian----
    Ambassador Hill. First of all, the Embassy is, indeed, very 
large. And frankly, it is unsustainable in its current 
configuration, and will need to get smaller.
    Just on the issue of housing for our employees, we are set 
up for about 600 employees; we have some--over 1,000 people 
there. We've taken one-bedroom apartments, put a Sheetrock 
divider through a small living room, and make them into two-
bedroom apartments for two unrelated employees. So, just in 
terms of the physical infrastructure, we are not set up for the 
size we are, and we need to get smaller.
    That said, there are certain tasks in the very near term 
that we need to take up, and take up with great seriousness, to 
make sure that, first of all, the Iraqis understand that the 
United States is not leaving; United States forces may be 
leaving, but the United States is not leaving. Chief among 
these, of course, is the issue of the police training, a 
function that was performed by the military which will soon be 
performed by people from the State Department.
    So, in doing that, we need to look at how we protect these 
people. Do we--and are we going to have to have additional 
security for these people now that we no longer have U.S. 
forces to do that? So, there will be some near-term issues like 
that. The overall footprint of the United States--indeed, the 
overall funding for the United States--will go precipitously 
down. The issue is how, in some areas----
    The Chairman. It's a balance.
    Ambassador Hill [continuing]. We have to take over for what 
the military has done.
    But, I want to assure you, Mr. Chairman, I want to see that 
Embassy smaller.
    The Chairman. Mr. Ambassador, you also talked about the 
issue of reform in Iraq. And, you know, we've been sitting on 
this committee, listening to this talk--I mean, I can remember 
Secretary Rice, down in the lower room of the Dirksen, 
testifying to use in January, 3 or 4 years ago, saying, ``The 
oil law is almost done. We're ready. We're moving forward on 
this and that,'' et cetera, et cetera. We are at least 3 or 4 
years later now, and still those contentious issues remain 
contentious. It seems to me that those may be the flashpoint, 
in the absence of an American presence. Would you lend your 
view on that, and on the prospect of actually resolving these--
--
    Ambassador Hill. Well, first of all, I'd like to say that I 
think getting the economy there operating--namely, getting oil 
starting to be pumped out of the ground--is essential to the 
future of that country. And frankly, we cannot be funding 
things that should be funded by the Iraqis, and would be funded 
if they were able to move on the oil sector.
    With regard to the hydrocarbons law, I went out there with 
the expectation that we would move on that; I know and you know 
it's been held up for 3 or 4 years. I have really worked that 
issue. We have tried to break it down, find out where the real 
differences are between the Kurdish Government and the Iraqi 
Government. It's a complex piece of legislation, actually 
involving four separate pieces of legislation having to do with 
revenue-sharing, having to do with institution-building, having 
to do with how the ministry would operate. And I think, 
realistically speaking, it will probably not get done before 
the January elections.
    So, our concern has been, we cannot have Iraq's future held 
up, or simply held hostage, to this one piece of legislation. 
Therefore, we were pleased that the Iraqis did move ahead with 
the beginning of something they hadn't done for decades and 
decades; begin the process of bidding oil fields to foreign 
concerns. They didn't do it during Saddam, they didn't even do 
it pre-Saddam. So, they have begun that. They began it in June.
    The Chairman. That's all well and good, but if all those 
revenues----
    Ambassador Hill. Yes.
    The Chairman [continuing]. If all those revenues are piling 
up in even greater amounts, and--without some distribution 
mechanism----
    Ambassador Hill. Yes.
    The Chairman [continuing]. You would have----
    Ambassador Hill. Well, there is a distribution mechanism. 
The 17 percent is basically agreed by all sides. So, even when 
the Kurdish regional government were able to export some oil 
with an agreement with Baghdad, they did it under the provision 
of 17 percent.
    So, I think these things can be properly distributed. The 
issue is in the--I won't say ``long run''--but certainly in the 
medium run, they're going to need this law, because the main 
issues go to things like infrastructure. Iraq's oil sector is 
very much in trouble, with very aging infrastructure. They have 
to have agreements on how they're going to pay for that. Is 
that the responsibility of local authorities? There are other 
issues having to do with the southern part of Iraq and their 
own regional concerns. So, I think they can deal with some of 
the key elements, but it would be much better if they dealt 
with a hydrocarbon law.
    But, I'm giving you my sense of the situation, and I don't 
think we're going to get there before January. And therefore, 
we really want to focus on getting them to bid out these 
fields, because getting British Petroleum in there is a good 
development.
    The Chairman. Mr. Ambassador, Syria and Iraq had indicated 
a willingness to try to cooperate on the borders and deal with 
the foreign-fighter issue, which is very much in our interests, 
and we've been pushing that on both sides, but the bombings on 
August 19 have led to a diplomatic explosion between the two 
countries. They've pulled their ambassadors and traded 
recriminations. So, where do we stand on that? What, if 
anything, could be done to end that? Will Turkish mediation 
make a difference? Is there something that, you know, we should 
be advocating at this point? And what do you think is the 
prospect for getting back to the place that we had hoped to be?
    Ambassador Hill. Well, I think we would like to see Iraq 
and Syria have a good relationship. And it was rather ironic 
that, on August 18--that is, 1 day before the bombing--Prime 
Minister Maliki was in Damascus, and they signed a number of 
economic agreements. Obviously, things are in a difficult 
state, and things are, frankly, on hold right now, through this 
downturn in the relationship.
    The Iraqis are very concerned about the fact that some 
senior Baathist leaders went and found refuge in Syria, and 
remain in Syria, and the Iraqis have, understandably, called 
for their return to Iraq. That issue, frankly, needs to be 
worked through.
    In terms of foreign fighters, there has been a diminished 
flow of foreign fighters from Syria to Iraq, but I don't think 
anyone should say that's gone to zero. And the issue of foreign 
fighters in Syria is also an issue that we need to be--I think 
everybody needs to be--focused on.
    The Iraqis, in their investigation of August 19, have come 
to the conclusion that this was more than an al-Qaeda strike; 
they believe there is considerable external influence in this. 
Their fingers tend to point toward Syria. We would like to work 
with the Iraqis on what evidence they have--we would like to 
share with the Iraqis what evidence we have to try to 
understand precisely what happened, and then get on with 
dealing with that and improving the relationship.
    Syria, obviously, has been a troubled neighbor for Iraq, 
but, I think, in the long run, Iraq needs to develop this 
relationship. Prime Minister Maliki spent 18 years of his life 
in Syria, so when one talks to Prime Minister Maliki about 
Syria, you have to do it with--in a way that's respectful of 
the fact that he knows a thing or two about Syria.
    The Chairman. Thank you, Mr. Ambassador.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Ambassador, as Americans read the newspapers about attacks 
now in Iraq, the question is raised, in a commonsense way, 
after the withdrawal of our forces from the cities on June 30, 
what is the outlook of the ordinary Iraqi citizen in cities 
about his or her security or about security in their homes and 
neighborhoods? In essence, there was rejoicing that we had 
fulfilled our commitment, and we did so. And yet, even the 
people that we have tried to train and left to provide the 
security seem to be inadequate for that task.
    Now, granted, the numbers of casualties are well down, as 
are the number of attacks, by any statistical measurement. 
Nevertheless, life has to go on in an ordinary way for people, 
with or without the United States. That being said, what is 
your prognosis of the security arrangements Iraqis are 
providing for themselves, and the perceptions of their citizens 
about that?
    Ambassador Hill. I think, with regard to perceptions, 
obviously there are concerns among Iraqi citizenry about the 
capability of their forces and their ability to handle a great 
security challenge, which their own government believes is not 
just developed within Iraq, but also has some foreign roots. 
So, this is a major issue there.
    That said, I think the locus of opinion is that it is time 
for the Iraqi forces to protect Iraqis. And so, the United 
States forces, which I do believe are the greatest fighting 
force the world has ever seen, has also become the greatest 
training force. There's been tremendous effort put into making 
sure the Iraqis are able to manage this issue. We have a great 
deal of cooperation as we try to have transparency in what we 
know about the situation and what they know.
    Now, the Iraqis will do things a little differently than 
the United States forces. And some of the things they do, in 
our opinion, ought to be changed. The question is, Can you get 
them to change things by just telling them, or are they going 
to have to learn to change things by the experience? You know, 
one issue is checkpoints. Are checkpoints, alone, enough to 
solve these problems, or do you have to have much more 
aggressive patrolling?--that sort of thing. I think these are 
things the Iraqi forces are entirely capable of learning.
    You know, right after August 19, there was a lot of finger-
pointing about, Did the police do enough? Was the army doing 
enough?--et cetera. I counsel that, really, this is not a time 
for finger-pointing. There'll be plenty of time for that in the 
future. What they really need to do is come together and figure 
out how they can do things better.
    There has been a lot of talk about whether these issues 
were related to bringing down T walls. I think anyone who's 
visited the Foreign Ministry--and, indeed, I took some of your 
colleagues to see it--they realize that it wasn't just an issue 
of T walls; it was an issue of a very well-funded terrorist 
group with very large truck platform, carrying thousands of 
tons of explosives, doing damage in a way that--I think, for 
most Americans to understand it--you have to think back to 
Oklahoma City. It was that type of agricultural chemical-based 
weapon.
    So, my own judgment is that the Iraqi forces--and, indeed, 
the Iraqi Government--is going to be challenged very much in 
the coming months. I also am of the judgment that they will 
learn from these terrible events, and will make the adjustments 
they need to make.
    I don't think this is a function of the fact that somehow, 
if we turned it over to them a year from now or 2 years from 
now, the issue would be much different. I think they have to 
simply learn, and I think they are doing that. There are some 
very capable people in the Iraqi security forces.
    Senator Lugar. Let me ask, as a followup to that, about the 
security of American personnel. You've indicated 1,000 people 
are in Iraq in a diplomatic capacity. But, news accounts 
indicate many more Americans are still in Iraq completing 
various projects, as private sector partners and so forth. What 
security do your personnel have, or the people doing the 
projects? And how much security is going to be required in this 
period of time? Furthermore we now have to get all of the 
equipment, supplies, vehicles, whatever we have in Iraq, out of 
Iraq. It must be a huge withdrawal operation you're looking at, 
not just of people, but of all of these goods and armaments. 
How is that proceeding?
    Ambassador Hill. Well, Senator, I think the military is 
working the logistics very well of how they will get their 
personnel and equipment out of Iraq, what routes they will use, 
how they will protect the force. I, as a humble American 
ambassador, I really don't think I can give any advice to 
General Odierno on this matter, except to say that--as a 
general statement, the environment in Iraq continues to be very 
dangerous. And if you just measure progress in Iraq by the 
degree of danger, I think it's very much in the interests of 
terrorists and insurgents to create the impression that it's 
extremely dangerous, and therefore there's been very little 
progress.
    We believe that we have adequate security to protect our 
civilians. When I go out, I go out in reinforced convoys. I 
must say, as a personal observation, when you arrive there and 
then you look at the number of people that have to be moved 
when I need to go from point A to point B, you think to 
yourself, Do I really need to go from point A to point B? Can I 
do this on the phone or something? But, soon you realize that 
if you allow yourself to be demotivated by worrying about how 
many people are moving when you're moving, you won't be able to 
get your job done.
    So, a lot of security people are moved whenever diplomats 
are moved around the country. We find it absolutely essential 
to get into the so-called Red Zone. I say ``so-called,'' 
because outside the Green Zone is the rest of the country, 
known as the Red Zone. But, we need to be out there. It is not 
without risk. We have lost people in the Embassy. We may lose 
people in the future. We believe it's the right approach. We 
take all precautions. No one is interested in doing anything 
against the precautions of our security people.
    So, it's a very tough environment. I must say, arriving 
there, realizing the difficulty of just getting from the 
airport to the Embassy, we are all very struck by it, but we're 
not going to give in to it. We're going to get our job done. 
We're going to get the Iraqis to stand this place up. And when 
our people leave, they will leave with a sense of a job 
accomplished. That's what we're going to do.
    Senator Lugar. Thank you, sir.
    The Chairman. Thank you, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you.
    Ambassador Hill, thank you for being here.
    I'd like to thank the chairman for holding this important 
hearing.
    I'm extremely pleased that we finally have a timetable for 
ending our involvement in the war in Iraq. And, while I'm 
concerned that the redeployment is not being done as promptly 
as it should be, this step will allow us to refocus on the 
global threat posed by
al-Qaeda.
    I remain convinced that foreign occupations are usually not 
a good strategy for combating a global terrorist network. We 
need to find ways to relentlessly pursue al-Qaeda while 
simultaneously developing long-term partnerships with 
legitimate local actors, and doing so through civilian, 
diplomatic, and development efforts that do not involve a 
massive military footprint.
    And now, as we transition out of Iraq, it is extremely 
important that we focus on making this an orderly withdrawal 
and doing everything we can, through diplomatic means, to help 
promote the political reconciliation needed to bring lasting 
peace to Iraq.
    As to some questions, Ambassador, how do the Iraqi people 
feel about the redeployment of all United States troops by the 
end of 2011, as currently required by the bilateral agreement? 
Is there any--is there a danger that any indication that we're 
backing away from that commitment would be greeted with strong 
opposition?
    Ambassador Hill. I think the dates of December 2011, August 
2010--these were agreed with the Iraqi Government in--at the 
end of 2008. I think any indication that we were not prepared 
to live with these dates would be very poorly received by the 
Iraqi people. And indeed, we saw this in the movement out of 
the cities on June 30, 2009. Whenever we tried to discuss that, 
in terms of nuances, immediately the Iraqi media and the Iraqi 
public got concerned that somehow we were looking for ways not 
to accomplish that. In the end, we did exactly what we said we 
would do, which was, we pulled our people out of the cities. 
And I think it really has established a reservoir of trust 
that, when you reach an agreement with the Americans, you can 
take it to the bank.
    So, I think it's very important to live up to these 
agreements. And I think the Iraqi people, even though they do 
have great concerns about security--I think they want to be 
responsible for their--see their country responsible for their 
own security. As I said earlier, I think these will be 
difficult moments ahead, but these are nonetheless, Iraqi 
moments to handle, and I think they will deal with this. We are 
dealing with some very competent people there, very intelligent 
people, and they will know what to do.
    Senator Feingold. Thank you for that answer.
    The Iraqi Government intends to hold a nationwide 
referendum on the bilateral Status of Forces Agreement and 
while there's been a lot of speculation about how this could 
impact our redeployment timetable, I'd like to also point out 
that both the Iraqi Parliament and the Iraqi people will have 
had a chance to vote on the agreement, even though the United 
States Senate has not. Can you assure us that any potential 
modifications to the security agreement will be submitted to 
the Senate for ratification?
    Ambassador Hill. The issue of the Senate ratification goes 
beyond my writ, but I will certainly take that question to the 
State Department and get you an official answer on that.
    Ambassador Hill. I can give you my personal opinion, that 
we would not----
    Senator Feingold. Would you, please?
    Ambassador Hill [continuing]. Want to be changing this--we 
would not engage in changing this security agreement without 
considerable consultation. But, as for the actual relationship 
between the Senate and the executive on this, I'd like to defer 
to our lawyers at the State Department.
    Senator Feingold. Well, thank you for that answer, and I 
look forward to further comments on that after you've done 
that.
    [The written information from the State Department 
follows:]

    We do not intend to amend the Security Agreement at this time, and 
we would not negotiate with the Iraqi Government to amend the Security 
Agreement without considerable consultation with Congress. We would 
expect to discuss with Members of Congress, in appropriate settings, 
the objectives of any changes and the substance of any issues under 
negotiation, and we would expect that State Department lawyers would 
carefully review any proposed amendment and advise how such an 
amendment as a matter of domestic law, should be concluded.

    Senator Feingold. The recent revelations about gaps in 
security at the Kabul Embassy continue to highlight our 
apparent inability to maintain discipline over our security 
contractors. In order to ensure adequate security for our 
missions, do you think it would be preferable to have the 
military provide security for U.S. embassies in war zones, 
which would ensure that we have a legally binding command-and-
control over such personnel?
    Ambassador Hill. You know, I believe our military has been 
tasked with a lot. And this is one where--when we talk about 
security personnel in an embassy, this is one where Chief of 
Mission ought to take this. And I believe that with these 
contractors, who report to mission elements, who, in turn, 
report to me, that we have adequate control. And what I can 
assure you is that I will do my best to make sure we don't have 
incidents. Incidents do happen. They happen everywhere. They 
happen in every institution. But, I can assure you that we do a 
lot to try to ensure that they don't happen. And I would rather 
not task the military with still another mission.
    Senator Feingold. Thank you. According to the Department of 
State's inspector general, there's no plan in place for 
transition to a diplomatic presence in Iraq, and we're, 
therefore, not adequately prepared for our military's 
redeployment. In response, the State Department indicated it 
has produced a unified transition plan, which was under review. 
When can we expect to see a final approved transition plan to 
ensure our diplomatic operations remain uninterrupted? And is 
the Embassy jointly producing a plan with the Department of 
Defense in order to ensure that the transition is well 
coordinated?
    Ambassador Hill. We are working very closely with our 
colleagues at MNFI--really, on a daily basis--and we have stood 
up an entire planning cell at the American Embassy, in our 
political-military section, under Ambassador Cameron Munter, 
who deals, on a daily basis, with the military on this. We also 
have a joint campaign plan, and we work through it, really, on 
a daily basis.
    We know the absolute responsibility we have in the State 
Department to ensure that the gains that have been achieved by 
our men and women in uniform are not lost; that we pick up and 
take the ball when they give it to us, and we're ready to move 
with it. So, we have an overall joint campaign plan. We have 
many other documents, in terms of the planning for how we take 
over functions--whether it's police training or others--and I'm 
sure we can share many of those with the committee.
    Senator Feingold. But, is there a unified transition plan 
that--apparently, that's under review--that we're going to be 
able to see? When will we be able to see that?
    Ambassador Hill. You will be able to see, I think, our 
joint campaign plan that we work out with the military, but I'm 
not sure about this other document. Maybe I can take the 
question----
    Senator Feingold. All right.
    Ambassador Hill [continuing]. And get back to you.
    [The written information referred to follows:]

    Planning and coordination are ongoing and robust, and the goal is 
to ensure that our diplomatic operations remain uninterrupted. The 
Embassy's planning units in the Political-Military Section and in the 
Office of Provincial Affairs are heavily engaged in multiple planning 
activities for the transition. One example is the Joint Campaign Plan 
(JCP), which has many components that will guide our transition in 
areas like rule of law, economic development of Iraq, and building 
Iraqi security force capability. These planning activities involve not 
only close coordination with DOD and other agencies, but with other 
Embassy Baghdad elements as well.
    The United States-Iraq Security Agreement and the United States-
Iraq Strategic Framework Agreement have produced a negotiated way 
forward to achieve United States and Iraq goals. The Embassy is 
currently planning for a provincial presence beyond 2011 and is working 
to define the elements of bilateral security cooperation, rule of law/
police-training programs, and other assistance programs.
    Senior Embassy management has provided significant leadership and 
planning guidance for the assumption of functions and programs 
currently performed by the military, the transition of facilities and 
property, workforce planning, and the normalization of Embassy 
operations.

    Senator Feingold. That sounds good. Thank you very much, 
Ambassador.
    Thank you, Mr. Chairman
    The Chairman. Thank you, Senator Feingold.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Good to have you back.
    Ambassador Hill. Thank you, sir.
    Senator Corker. Yes, sir. And, Mr. Ambassador, for your 
service, thank you very much.
    I know that, typically, we would have witnesses from the 
State Department, and Armed Services would have witnesses from 
the military, but, just to follow on a little bit with Senator 
Feingold's comments--or, questions--the taking down from 
130,000 troops to 50,000 troops is a pretty big logistical 
feat. And I know we're going to stay pretty manned up until 
after the elections, and then, very shortly thereafter, be down 
to 50,000 troops. Are you comfortable that, logistically, in 
doing that, that the plans are being set in place to make that 
happen in an appropriate way?
    Ambassador Hill. I'm very comfortable. I've talked to 
General Odierno on a number of occasions. He has, really, some 
of the finest planners I've ever seen working on this. And 
you're quite right, the overall numbers stay pretty much 
constant; they're coming down a little already, but they stay 
pretty much constant through the January election, and then 
start ramping down in the spring. And his planners work this 
very carefully.
    Senator Corker. So, to the hardware, anybody that--all of 
us have been there, and the amount of hardware on the ground, I 
think, would shock most people who haven't seen the billions 
and billions of dollars of equipment that is there. You know, 
what is the--going to be the outcome of that? To me, that's an 
even greater logistical issue----
    Ambassador Hill. I think it's a----
    Senator Corker [continuing]. As to how we move all the 
hardware out of the country. Where is it planning to go at this 
moment? Could you give us some insights there?
    Ambassador Hill. Well, again, I have to defer to my 
colleagues in the military. But, I can tell you, there's some 2 
million pieces of hardware in that country. It is simply 
extraordinary. There are vehicles, there are generators, things 
like that.
    What you're asking, though, is a subject of ongoing 
planning by our military to see which things are worth carrying 
all the way back to the States, which might be left for 
civilian use as we take over military roles. I keep mentioning 
police training, but that's one of the most obvious, because 
it's one of the biggest. So, the question is whether there's 
some hardware on that side--on the military side that could be 
transferred to the civilians. We're looking at that issue.
    There's, of course, the issue of the Iraqi Army and what 
equipment would be appropriate to be transferred to them, and 
then whether there's any other regional contingency for that 
equipment.
    I am not, though, the one to talk about how the hardware 
belonging to the military should be divided, but I can assure 
you that there is a very active discussion, especially within 
MNFI and other military planners, on how to do that.
    Senator Corker. One can't help but, when you sit and talk 
to our leaders there, realize that there's really no way that 
Iraq, as a country, even with the amount of oil that they have 
and the revenues that will be generated there--there's no way, 
in the short term, they can sustain themselves budgetarily--I 
mean, with the troops, the police, all the things--the 
reconstruction that is necessary. I'm wondering if you might 
talk to us a little bit about how long you think it's going to 
be into the future that we, as a country, are supporting Iraq 
financially.
    Ambassador Hill. Yes. Senator, I think that's a very fair 
question. Iraq needs to stand up a lot more revenue. And, in 
particular, they have, only in August of this year, reached 2 
million barrels a day of oil exports. This is a country that is 
at least the holder of the third-largest confirmed oil reserves 
in the world, some 115 billion barrels of oil in the ground. I 
think they have to do a lot better job of getting the oil 
sector to start pumping this out, which is why, earlier, we 
were discussing this issue of the bids and the fact that they 
gave to British Petroleum for negotiation a field called 
Rumaila, which is down in the south. If that goes well, Rumaila 
will get something more over the next 5 years. And I think 
that's kind of the timeframe, to answer your question. Within 
this 5-year period, we should be looking at--just from that 
field, they should be able to get up to, maybe, on the order of 
1.7 million barrels a day. Put that together and that's almost 
doubling their exports.
    So, in the timeframe, I would say, in the next 3 to 5 
years, they should be able to substantially increase their 
exports, and, therefore, their funding.
    Senator Corker. But, not to support themselves as a 
country.
    Ambassador Hill. No, I think they can. You know, they have 
an enormous supply of oil. And I think if they start getting 
that out of the ground, and assuming oil prices are what they 
are, Iraq should be able to pay their own bills. There is no 
question, they should be able to pay their own bills. What they 
have to do is get over the notion--and it's a notion that goes 
beyond or before Saddam Hussein, it goes into the 1950s, it 
goes, maybe, even to the British occupation in the 1920s and 
1930s--the notion that they don't want to see assets be turned 
over to foreigners to develop. So, they've got to get over 
that. There is a good sign of that, in June, when----
    Senator Corker. Right.
    Ambassador Hill [continuing]. British Petroleum was invited 
in to negotiate on this field. They're going to do additional 
bids later this year. And we're hopeful that this will result 
in substantially increased oil.
    Senator Corker. Right.
    Ambassador Hill. I mean, remember, it has the third-largest 
reserves in the world. There is no reason they cannot pay their 
bills.
    Senator Corker. Yes. I noticed, last night when the 
President spoke, that he continues to compare himself very 
favorably to the previous administration, and especially as it 
relates to budget issues, which, by the way, on budget issues, 
I very much am glad that that's the case. Is it your feeling, 
then, that they will continue the pattern of not asking for any 
moneys for Iraq in supplementals, but it'll be done per normal 
budget requests and through normal appropriations?
    Ambassador Hill. Again, how moneys are requested, either 
through supplementals or through the normal budget process, is 
a set of decisions that goes beyond my writ in Baghdad. I have 
enough problems in Baghdad. But, what I can tell you is that we 
need certain funding for our operations in Baghdad. We need 
funding for the various programs we're doing. And it's the 
usual push and pull, but I believe we're getting what we need 
in order to get the job done.
    And another thing I can assure you is, we're really going 
to be vigilant on how that money is spent. We have an 
ambassador who came out there, named Patricia Haslach, and I 
put her in charge of all of these assistance matters, so that 
everything comes to her, and we are looking to see whether 
these things are working, whether the Iraqis really are using 
them; and if not, we're going to cut the programs.
    Senator Corker. My time is up, and I know my colleague from 
Maryland is next. I do hope, in writing after this, you'll 
potentially give us an update on where the U.N. sanctions 
issues are as it relates to Iraq.
    I mean, obviously, the sanctions were put in place in 1991. 
The great work you're doing has caused Iraq to be a very, very 
different country, as have many others. I mean, there's been 
huge sacrifice by many folks. That's inhibiting Iraq's 
progress. And I'd just love to have a written update as to 
what's happening to change that, because my time is up.
    And again, thank you for your service.
    Ambassador Hill. Senator, that is one of my favorite 
subjects, and I would be happy to be in touch with you on that.
    The Chairman. Thank you, Senator Corker.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    The Chairman. Let me say to everybody, we have a vote, I 
think, in 10 minutes or so. And there may be another round that 
people want to have, so we'll see where we are.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Ambassador Hill, it's always a pleasure to be with you. And 
thank you, again, for your service in Iraq.
    I've talked to you before about the issues of Iraqi 
refugees and displaced persons. A significant number still live 
in Jordan and Syria, and many no longer live where they used to 
in Iraq. Can you bring us up to date as to what the Iraqi 
Government has been doing in regards to refugee issues, what's 
happening in the neighboring countries, and whether we are 
actively involved in trying to encourage more refugee-related 
activities?
    Ambassador Hill. Senator, we are very much actively 
involved. First of all, in terms of internally displaced 
people, there has been progress in getting people back to their 
homes. It's often not an easy process, because you have to, 
often, evict people from homes before you can bring the 
original homeowners back.
    I will tell you, though, very frankly, that the progress on 
refugees, some 1 million or 1\1/2\ million refugees, who are 
mainly in Jordan and Syria, that progress in those areas is 
inadequate. We have named a special coordinator to deal with 
this on the Washington end. I have an extremely capable refugee 
coordinator, in the Embassy in Baghdad, who has a lot of 
experience in this--Mark Storella--and we have--we need, from 
the Iraqis, a similar commitment to bringing these refugees 
home. The Iraqis often tell us that there are no barriers; they 
can simply come home. We believe more needs to be done to make 
sure that they feel welcomed and feel safe. So, I can assure 
you, this is a real priority, because these refugees, who are 
in places like Syria and Jordan, are not having an easy time of 
it; it is costing everyone money, and we would like to get them 
home.
    I have raised this with the Iraqi Government, and I will 
continue to raise this. There's one very specific thing, which 
is, they have agreed to name an interagency coordinator, 
because this can't just be dealt with in their Ministry of 
Migration; they need to have a more interagency process. 
They've agreed to do this, and I think we're going to really 
hold them to it.
    Senator Cardin. Well, I thank you for that. I've had a 
chance to visit with some of the Iraqi refugees in both Syria 
and in Jordan, and you're absolutely right. There is a concern 
over safety issues upon return. There are more complications 
than just being able to return to Iraq itself, and it does 
require the attention of the Iraqi Government. It's one of the 
areas that I've had great concern over, as to whether they're 
giving a high enough priority to this issue. I know they're 
concerned about it. But, I would just urge you to continue to 
press for progress. This is a humanitarian issue and one that 
needs to be dealt with by Iraq if it's going to be able to move 
forward in governing its people.
    Ambassador Hill. Senator, I completely agree with you. 
Another element of this is, a lot of these refugees are 
precisely the kinds of skilled people that Iraq needs back in 
the country. So, it's not just that the refugees need to get 
back; Iraq needs these people back. So, with your permission, 
I'd like to take your comments right back to the Iraqi 
Government and stress the fact that this is a major issue back 
here in Washington, that we look at this issue very closely. 
The United States is very much engaged in helping refugees 
throughout the world, and we expect our partners to be 
similarly engaged in this.
    Senator Cardin. Could you give us a few more details as to 
what is happening between Syria and Iraq since the August 
bombings, whether there are diplomatic communications and 
progress being made between the two countries, whether the 
United States has a role to play in this or not, and your 
assessment as to how the August bombings affect the ongoing 
relationship between Iraq and Syria?
    Ambassador Hill. Well, there's no question that it affected 
the ongoing relationship. On August 18, the day before the 
bombing, Prime Minister Maliki was in Damascus for the first 
time in many months, and they signed some economic agreements, 
and they actually agreed to make some progress. So, that was 
actually probably the high point.
    A day later, there were two bombings in Baghdad, and within 
days, the Iraqi Government expressed very public concern about 
Syria's role. As that has happened, the ambassadors have been 
recalled.
    There is dialogue. That is, there are diplomatic 
communications. And, as you know, Turkey has attempted to try 
to do some mediation. But, I think there needs to be further 
work; Syria needs to understand the depth with which the Iraqis 
consider the fact that the Syrians have given refuge to senior 
members of the Baath Party who are very much dedicated to 
violent change in Iraq. This is very much something the Iraqis 
worry about.
    We have been concerned in the past about the flow of 
foreign fighters from--or, through--Syria. This has diminished 
in recent years, but it has not stopped. So, it is important 
for us to see this situation calm down.
    But, I'd like to make a broader point; what the Iraqis were 
saying is that some of the problems of terrorism that they are 
encountering, including these mammoth bombs that were really 
sort of Oklahoma City-like, were bombs that could not be done 
just by people within the country. There is foreign influence. 
And for this reason, the Iraqis have gone to the United Nations 
and asked for additional help. The Prime Minister sent a letter 
to Secretary General Ban Ki-moon; I know the U.N. is 
considering what to do about this. So, the point the Iraqis are 
making is that the issue goes beyond Iraq, and they need 
neighbors to step up on this, including Syria.
    I would like to say, as I said in my opening testimony, 
that I think one of the real tests, or one of the real 
questions--let me put it that way--is, Can a region, which is 
far and away dominated by Sunni governments--can that region 
make room for an Arab state that will probably have a Shia-led 
government? Are they prepared to do that? This is a change in 
the equation. You know, Saddam was very much a Sunni.
    And so, when we look at some of the influences in Iraq, we 
have to be, No. 1, concerned about Iran, because they have been 
very much present in Iraq in a very malevolent way, but we also 
have to be concerned about some of the Sunni countries, where 
there has been some evidence to suggest that they have been 
funding some of the terrorism in Iraq.
    Senator Cardin. I think we'd just--Mr. Chairman--I think 
we'd be interested in finding out as much information as we can 
as to Syria's role in regards to Iraq. It's not unique to Iraq, 
our concerns about Syria and support----
    Ambassador Hill. Right.
    Senator Cardin [continuing]. For terrorism. And I think----
    Ambassador Hill. Right.
    Senator Cardin [continuing]. It would be important for us 
to be kept informed as to what we determine the Syrian role was 
in regards to the August bombing.
    Ambassador Hill. OK.
    The Chairman. Thank you, Senator Cardin.
    The vote has started, but I want to try to ask a few more 
questions before we have to break out of here.
    Senator Lugar, do you have more? You don't have any?
    First of all, with respect to the relationship that Senator 
Cardin just referred to, the Sunni neighborhood, which is as 
you know, the majority of the neighborhood. I'm concerned about 
what you've said. And can you be more specific, a little bit, 
about where these pockets of, sort of, tension with respect to 
the relationship in the Sunni world are coming from? And how 
serious is that as we go forward with less and less American 
presence there?
    Ambassador Hill. Well, I think what we want to be concerned 
about, or what we want to avoid, is a situation where countries 
equate the withdrawal of U.S. troops with a withdrawal of U.S. 
interests in Iraq. We would like to stand up a long-term 
relationship with Iraq. We want to be very active with Iraq. 
We've invested heavily in Iraq in every way. And so, we want to 
be very much there.
    And if there is a perception in the neighborhood that 
somehow the United States has lost its strategic interest in 
Iraq, we could have a sort of new great game going on, where 
neighbors, including--and especially--Iran, but also Sunni 
states as well, see somehow that Iraq is up for grabs. And so, 
that's what we are mainly concerned about.
    Now, Iran's----
    The Chairman. Are you saying, though, that that is the 
current Sunni perception?
    Ambassador Hill. I think it is a perception among some 
Sunni countries. I don't want to name names here, but I do 
believe that some Sunni countries believe that somehow it was 
an aberration that there's a Shia-led government there, and 
that somehow, in January, it'll flip back, and they just need 
to be a little patient or show a little more effort to try to 
get the Sunni parties to be better funded, and somehow they 
could emerge victorious with a split Shia community.
    So, my point is, there's a perception in Iraq that they 
could be subject to this kind of process of neighbors trying to 
influence the outcome of elections. I think that would be very 
dangerous, and I think it's very much a perception that we need 
to tamp down, especially with other countries in the region. We 
need to convince countries in the region that the answer to 
Iranian mischief is not Sunni mischief; the answer to Iranian 
malevolence is to do, really, what Turkey is doing; that is, to 
be openly engaged in Iraq in trying to help Iraq through what 
is a very difficult time.
    In our view a strong Iraq is essential to the region.
    The Chairman. What do you worry about the most, in the 
context of the drawdown? Next April to August, we will 
drawdown, ostensibly, some 70,000 to 80,000 troops. The 
election takes place in January. It may well be that they don't 
even have a government set up by the time that drawdown takes 
place.
    Ambassador Hill. Well, I worry about precisely that issue. 
That is, I feel the real threats are not necessarily security, 
because, I think, in the long run, the Iraqis will be able to 
figure out security. I worry about developing the political 
rules of the game. And what I don't want to see is an election 
that results in 6 months of government formation during which 
there is really a loss of some of the progress that has been 
made. So, I worry that it will take a long time to form a 
government after January.
    The Chairman. Do you pick up any whisperings and/or 
discussions in backrooms, or privately to you, of an expression 
of fear about the potential of a greater flow of power to Prime 
Minister Maliki, and even a greater grab of power, and the 
potential for a de-democratization in some effect?
    Ambassador Hill. Well, Senator, in the privacy of this 
hearing room, I will say that, indeed, when you talk to Iraqis, 
we are in an election period, and there are very strong 
opinions about Prime Minister Maliki across the board. And if 
you listen to all those opinions--and that's really our job in 
the Embassy, to understand what people are thinking--yes, you 
will hear the opinion that you've just expressed.
    Now, you'll also hear the opinion that, because Prime 
Minister Maliki's government was put together with great care 
after a great deal of political horse-trading, that he has a 
situation that some of his ministries, in his view, are not 
loyal to him, or are not functioning. And so, he ends up 
appointing people around him, in the Prime Minister's Office, 
to do essentially what are ministerial functions, because he 
needs to get the job done. And this is a country where 
ministries often deal with just providing basic services, that 
sort of thing. So, you hear other people say that he needs to 
bring these people around him in order to get the job done.
    The Chairman. And what has been the impact--unfortunately, 
we're going to have to cut off, because I've got to go over to 
vote--but, what has been the impact of Abdul Aziz Hakim's 
passing, in terms of the power center?
    Ambassador Hill. Yes. I think it is--it is too early to 
tell, at this point. I went down to the ISCI compound that day, 
or a few days later, for part of the memorial, the mourning 
period, and it was really quite extraordinary. Every senior 
Iraqi politician was there. Thousands of people gathered around 
this mosque area.
    I think it's early to tell, but I think ISCI is looking to 
be a major player in the elections. They were the first to try 
to form a coalition. It looks like his son is going to be 
taking over, for the time being. And we have to see how they do 
in the elections.
    The Chairman. Well, Mr. Ambassador, we do have some 
additional questions. The last thing I want to do is burden you 
with a lot of written record, but if you'll permit us, there 
are a few things we'd like to just make sure are part of the--
--
    Ambassador Hill. Sure.
    The Chairman [continuing]. Record. So, we will submit those 
to you. And I'll leave the record open for--til next week for 
the purposes of any other Senators who have questions they need 
to submit.
    The Chairman. We are very grateful to you. I know it's a 
long way to travel. And I thank you for switching your schedule 
with the House in order to comply with our needs here. And the 
same thing we said to you as we sent you off, in confirming 
your nomination for this, we think you're the right person for 
the job. We are grateful that you're there. It's tough. And I 
think a lot of the questions that have been asked today, you 
know, may still be open-ended. And I think you know that, too.
    But, we look forward to working with you, and, again, look 
forward to being out there sometime in the near future to get a 
better look at things.
    So, thank you very, very much for the job you're doing. 
Please thank all of our Embassy personnel there, and, of 
course, our military personnel. It is not forgotten here. We 
know they're there, and we care enormously about the outcome. 
And I appreciate what you've said today about the need to 
secure the gains and make sure the sacrifices, to the greatest 
degree that we can, were made for a purpose that we're still 
fighting for. So, we thank you for that.
    Ambassador Hill. Thank you.
    The Chairman. Thank you.
    We stand adjourned.
    [Whereupon, at 3:52 p.m., the hearing was adjourned.]
                              ----------                              


 Additional Material and Questions and Answers Submitted for the Record


    Prepared Statement of Hon. Christopher Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, thank you for holding this hearing. With the recent 
increase in violence in Iraq, including deadly bombings targeting 
official government buildings and increased violence and tensions in 
the north, I believe that some of the questions I posed back in March 
still need to be answered: Have the fundamentals in Iraq changed? And 
as we drawdown our troops and begin to leave, what else can we do to 
assist the Iraqis in building a stable state?
    The thousands of Americans serving in uniform in Iraq, as well as 
the civilians working in our Embassy to rebuild that country, deserve 
our deepest gratitude for their service. In my view, the best way to 
show our country's gratitude is to bring our troops home to their 
families as quickly as possible.
    I support the President in his efforts to withdraw American forces 
from Iraq in the most responsible and rapid means possible, and I think 
that withdrawing from Iraq's cities was a key first step. But, 
Ambassador Hill, what is our next step in the withdrawal process 
between now and our next deadline in 2010, and when do you expect us to 
take it?
    And as we prepare to take those next steps we must acknowledge the 
challenges the Iraqi people still face as they build a stable state, 
and realize that it is the Iraqis themselves who must take necessary 
steps toward achieving those goals. The Iraqi Government should work to 
ensure that post-war reconstruction remains on track and does not 
become further mired in corruption and shady business deals. Iraq must 
strengthen its own institutions that bolster the rule of law and build 
Iraqis' trust in their own government. And perhaps, most importantly, 
Iraqi security forces should work to overcome sectarian and tribal 
divides and faithfully enforce the rule of law.
    In the end, it is only the people of Iraq who can determine the 
fate of their country, particularly when dealing with issues so closely 
tied to Iraq's national identity. And as we withdraw our troops, the 
United States should be ready and willing to provide diplomatic and 
technical assistance when feasible and appropriate. I look forward to 
seeing the administration's plan to do just that as U.S. military 
operations wind down in Iraq.
    Ambassador Hill, thank you for appearing before this committee to 
provide us with an update on the situation in Iraq, and thank you for 
your continued service to our country.
                                 ______
                                 

  Responses of Ambassador Christopher Hill to Questions Submitted by 
                           Senator John Kerry

    The U.S. Embassy in Iraq is the world's largest diplomatic mission, 
with more than 1,000 American personnel. In your written testimony, you 
said that the American Embassy in Baghdad will begin ``rightsizing'' 
its presence and that the administration is ``currently engaged in a 
deliberative process . . . on the future footprint of the U.S. mission 
in the provinces.''

    Question. When do you expect the rightsizing process to be 
completed?

    Answer. Rightsizing is taking place as the Embassy's mission 
evolves. We are mindful of the personnel, infrastructure, and financial 
costs of such a large mission and we are aware that the current size of 
the Embassy is not indefinitely sustainable. We share your desire to 
normalize our relations with Iraq and, accordingly, we envision an 
Embassy that will reflect this relationship.
    The current size of the Embassy and our provincial footprint 
reflects the importance of the United States-Iraq bilateral 
relationship and the special unique challenges under which the Embassy 
and the provincial presences grew and continue to operate. As the 
character of that relationship evolves, the size and composition of 
Mission Iraq staff will also evolve. As we shift to a civilian lead it 
is possible that while we will see a long-term decrease we may see an 
initial increase in some areas as we transition away from old programs 
and assume new or increased responsibilities in other areas.

    Question. How large a diplomatic presence do you anticipate in 
Baghdad and in the provinces in January 2012, at which point the 
American military redeployment from Iraq is expected to be complete, as 
mandated by the United States-Iraq bilateral security agreement?

    Answer. As the President has stated, we will need a robust presence 
through the national elections in January 2010 and the subsequent 
seating of the new government. As combat brigades withdraw, we will 
consolidate or disband the embedded PRTs associated with them. 
Intensive planning has been underway between the interagency, Embassy 
Baghdad, MNFI and DOD to determine our civilian presence in FY11 and 
FY12. We will have a provincial diplomatic presence that will reflect 
in its size and composition not only our program and policy objectives, 
but the operational realities on the ground, as well.

    Question. Approximately how many contractors does the State 
Department employ in Iraq? How many contractors does the State 
Department expect to employ a year from now, at which point the United 
States military presence is scheduled to be at 50,000 troops or lower?

    Answer. The Department of State currently employs between 5,000 and 
5,400 contractors in Iraq. The contractors provide essential 
capabilities in such areas as security and operations and maintenance. 
As with noncontractor staff, contract staff levels will be adjusted to 
meet the constantly changing mission requirements.

    Question. According to Article 22 of the United States-Iraq 
Security Agreement, the United States is required to either release 
detainees or turn them over to Iraqi custody, pursuant to an Iraqi 
arrest warrant. As of August 27, the State Department reported that 
8,974 detainees remained in U.S. custody, down approximately 6,400 
since January, when the agreement went into force. When do you expect 
the process to be completed? What can be done to expedite the process?

    Answer. As you note, Article 22 of the United States-Iraq Security 
Agreement (SA) requires U.S. forces to turn over custody of legacy 
security detainees pursuant to a valid Iraqi arrest warrant and release 
the remaining detainees in a safe and orderly manner, unless otherwise 
requested by the Government of Iraq (GOI). The United States and the 
GOI have developed a joint detainee committee to complete the process. 
While the SA does not specify a timeframe by which this process is to 
be completed, the original goal was to conclude it by the end of this 
year. Because the vetting of detainees to determine those for whom the 
GOI would issue arrest warrants is taking longer than originally 
anticipated, it is now expected that the process will extend beyond the 
end of the year. While we understand the interests of many to expedite 
the process, it is also important to ensure that it be completed in a 
safe and orderly manner, as contemplated in the SA.

    Question. I have some concerns about what appears to be the 
premature winding down of the Iraq Transition Assistance Office in 
Baghdad. It is my understanding that more than half the positions are 
now vacant, including positions that the Defense Department would 
willingly staff. In addition, a letter from the Iraqi Minister of 
Electricity, Dr. Karim Hasan, to General Petraeus and General Odierno 
last month raised questions about the State Department's cancellation 
of a legal contract that Dr. Hasan said was critical to completing 
negotiations that are essential to improving Iraq's electricity 
production. As you know, the transition office is an important element 
of our plans to provide key services like electricity, clean water, and 
adequate health care as we prepare to hand over these functions to the 
Iraqi Government next year. Can you please explain your rationale for 
allowing these openings to remain unfilled and can you please explain 
what effect these vacancies will have on the transition?

    Answer. By law, the 3161 organization called the Iraq Transition 
Assistance Office (ITAO) is required to sunset in May 2010. My 
Assistant Chief of Mission, Ambassador Pat Haslach, and I regularly 
review ITAO staffing levels to ensure they are adequate to accomplish 
one of its key missions--to complete expeditiously remaining large 
scale infrastructure projects.
    The reconstruction phase of U.S. efforts in Iraq is over, and we 
are focused on providing the government and people of Iraq with 
technical assistance to develop their capacity to improve the 
effectiveness and transparency of government institutions and to 
broaden the base of economic growth. For example, through the 
Department of State and USAID, the Embassy manages a robust portfolio 
of technical assistance and capacity development programs for all Iraqi 
ministries.
    As we transition from a predominantly military presence in Iraq to 
a civilian presence, USG assistance oversight will require 3161 hiring 
authority beyond May, 2010, and will need a follow-on 3161 organization 
to ITAO. This organization's mission would be different from ITAO's, 
reflecting the new, cooperative nature of our relationship as we work 
to make Iraq a secure, sovereign, and stable nation better integrated 
internationally and regionally, with a strong economy.
    Our 3161 employees provide essential subject matter expertise. We 
see the need for such expertise continuing for the next several years 
through the fragile transition period as we work to reduce the drivers 
of instability and implement the Strategic Framework Agreement (SFA). 
The flexibility of the 3161 mechanism gives us the capacity to direct 
quickly people with essential skills to where they are most needed.

    Question. You have stated your commitment to address human rights 
abuses and protect minorities in Iraq. There have been many instances 
of violence against gay, lesbian, and transgender Iraqis, and some 
reports suggest that such targeted hate crimes are only increasing even 
as other forms of violence in Iraq decline. Are these murders being 
investigated? Can you please update us on any steps that the U.S. 
Embassy and the Iraqi Government are taking on this issue?

    Answer. As Secretary Clinton said on September 11 at the Roosevelt 
Institute, we must condemn violence based on sexual orientation and 
gender identity. The U.S. Government continues to promote the human 
rights of all Iraqi citizens, including in the lesbian, gay, bisexual, 
and transsexual (LGBT) community and religious and ethnic minorities, 
through our civilian programs and training with the Iraqi security 
forces. We condemn all acts of violence and human rights violations 
committed against individuals in Iraq as a result of their sexual 
orientation, gender identity, religious beliefs or ethnic identities. 
The Embassy has raised the issue of violence against LGBT Iraqis as 
well as attacks against minority groups with senior GOI officials, 
including the Minister for Human Rights, and has urged them to respond 
appropriately to all credible reports. We are also working with local 
and international nongovernmental organizations (NGOs) as well as the 
United Nations Assistance Mission for Iraq and our diplomatic partners 
to ensure that the rights of Iraqi citizens are protected and 
respected.
    We have confidence that the Iraqi Government will ensure that the 
rights of all Iraqi citizens are protected and upheld, regardless of 
sexual orientation, religion, or ethnicity, but we are not aware of an 
investigation currently underway regarding these murders.
    After the July attacks against several churches in Baghdad, we were 
pleased to see immediate action by the Government of Iraq to provide 
increased security near churches. Following the attacks, Ambassador 
Hill met with minority leaders to discuss their concerns and will 
continue to work with Christian leaders to monitor the security 
situation in the future.

    Question. According to human rights organizations, more than 1,000 
people face execution in Iraq. In light of concerns that Iraq's 
criminal justice procedures fall short of international standards and 
allegations of torture and false confessions, what steps, if any, is 
the United States Government taking to encourage rigorous standards for 
fair trial in capital cases?

    Answer. Our Embassy has reported that the increase in executions 
most likely relates to the fact that the former Minister of Justice was 
opposed to capital punishment, while the current Minister's views 
differ. Because we share the concern that standards of justice and 
investigation meet international norms, we have a broad range of 
programs designed to improve capacity in these areas.
    Torture in all forms and under all circumstances is prohibited by 
the Iraqi Constitution. Throughout 2009, Iraq's Ministry of Interior 
(MOI) and Ministry of Human Rights (MOHR) have documented and 
investigated allegations of coerced confessions and torture reportedly 
conducted by Government of Iraq (GOI) officials in MOI and Ministry of 
Defense (MOD) facilities.
    Strong efforts are being made by the U.S. military and the 
Department of State's Bureau for International Narcotics and Law 
Enforcement Affairs (INL) to help the GOI decrease human rights 
violations against detainees and foster an environment of respect for 
human rights within Iraq's security and correction institutions. INL's 
corrections training and advisory program in support of the Ministry of 
Justice and Iraqi Corrections Service emphasizes the operation of safe, 
secure, and humane prisons and detention facilities. The United Nations 
Standard Minimum Rules for the Treatment of Prisoners serve as the 
basis for the human rights component of the training. Through this 
program, all Iraqi Corrections Officers receive basic training on human 
rights, and information about prisoner rights is posted in Ministry of 
Justice prisons and detention facilities.
    The Department is also funding programs that underscore the 
importance of an inclusive, transparent, responsive, and accountable 
government that prevents abuses. We are funding programs aimed at 
establishing a strong independent judiciary, as well as programs that 
foster greater democratic participation and capacity throughout Iraqi 
society. Our Embassy is highly focused on these issues and will 
continue to monitor human rights issues closely.
                                 ______
                                 

  Responses of Ambassador Christopher Hill to Questions Submitted by 
                         Senator Richard Lugar

    Question. In terms of developing lasting relationships and 
institutions, what programs are key to ensuring Iraq does not 
backslide? What funding levels have been identified and requested for 
those programs for the long term?

    Answer. Democratic institutions are taking root in Iraq, but 
progress is uneven and fragile. As USG assistance makes the transition 
from being predominately military to mainly civilian, we must maintain 
strong engagement to prevent backsliding and to build close and 
constructive ties. Such ties are squarely in our interests, in Iraq's 
interests, and in the interests of the region. In addition to security 
assistance programs mainly managed through DOD, the Strategic Framework 
Agreement provides a solid foundation for civilian engagement and 
cooperation. Going forward, we will seek to align to our foreign 
assistance with the priorities of the SFA.
    From the total request of $415.7 million in FY 2010 Economic 
Support Funds, the President has asked Congress for $171.2 million in 
order to help national, provincial, and local government institutions 
strengthen their capacity to protect and expand the rule of law, 
confront corruption, and deliver basic services. It is imperative that 
the United States continue to build on earlier successes in order to 
help the Iraqi Government and its people take full responsibility for 
Iraq's future stability and growth.
    At the national level to support ministries, $85 million has been 
requested in order to develop institutional capacity for public 
administration training build core functions in key ministries and 
executive offices, and support civil service reform to strengthen 
national capacity development. The next phase of the Ministerial 
Capacity Development program will build on previous success, such as 
engaging in a continuous lessons-learned exercise and rolling out 
activities to the provincial level. A key focus will also be the 
institutionalization of capacity-building efforts within the ministries 
themselves.
    To complement the efforts at the national level, the Local 
Governance Program (LGP) builds capacity of local governments to 
respond to citizens' needs, thereby contributing to the shared goal of 
a stable, prosperous Iraq. The objective of the FY 2010 request of $60 
million for LGP is to establish and strengthen the conditions, systems, 
and institutional capacity for Iraq's provincial governments. At the 
provincial level, $10 million will augment the Community Action 
Program's effort to strengthen subprovincial government and to assist 
communities in organizing and better articulating their needs to 
government bodies.
    We have also requested that Congress provide $6.2 million to 
develop three primary areas of the Iraqi inspectors general capacity to 
conduct high-quality investigations and maintain organizational 
sustainability. We will seek to:
          (1) Provide advanced corruption-focused investigative skills 
        training to IG investigators from all IG offices aimed at 
        improving investigative performance;
          (2) Deliver training to executive/managerial/supervisory 
        personnel to enable them to more effectively administer 
        anticorruption programs and sustain a modern professional 
        anticorruption program; and
          (3) Deliver Train-the-Trainer instruction to IG personnel to 
        fully equip them with the requisite skills to deliver future IG 
        training programs.
    In FY 2010 we have requested $10 million to continue USAID's 
Legislative Strengthening Program, which improves the institutional 
capacity of the Council of Representatives. The legislature aspires to 
play a stronger role in determining public policy, appropriating public 
resources and holding the government accountable on behalf of its 
constituents--a radical departure from the past, when Iraq's 
legislature was marginalized and treated as a rubber stamp by the 
strong executive. This program is particularly important given the 
likely turnover of parliamentarians after the January 2010 Iraqi 
national elections.

    Question. Sectarian violence appears largely to have ended in 2008. 
Dissension along Sunni and Shia lines appears to have abated as well. 
In the provincial elections earlier this year Iraqis voted out 
incumbents, Islamists suffered losses, and nationalistic themes were 
victorious. What fault lines do you look to for movement on whether 
this might backslide? Is there worst case analysis and planning should 
January elections come out differently and sectarianism reerupt? Feel 
free to share with us any classified analysis and planning if that is 
helpful as we seek to understand what we could face into next year.

    Answer. The emergence of issue-based politics is an encouraging 
sign of the development of Iraq's democracy. We continue to monitor 
potential fault lines, including the implementation of the Sons of Iraq 
program and the establishment of alliances in the run up to national 
elections. While we expect continued formation of electoral alliances 
and coalition discussions, it is quite probable they will come together 
mostly around sectarian lines. Iraqi voters will be the arbiters of 
Iraq's future direction and the elections will give a good indication 
of their support for sectarian politics or preference for greater 
movement toward ethnic and religious integration in politics. Formation 
of a national government following elections will likely require 
participation by multiple groups and intrasectarian cooperation and we 
support the efforts of Iraqi parties to promote national unity. 
Ultimately this is an internal Iraqi matter and the Iraqis are 
responsible for forming their national government.
    We anticipate that the national elections will build on the success 
of the provincial elections. Violence is at its lowest point since 
2003. Most importantly, key drivers of past violence, such as the 
Sunnis, who boycotted elections in 2005, have been enfranchised by 2009 
provincial elections, and have vigorously organized and are jockeying 
for advantage in the runup to 2010 national elections. We have every 
expectation that 2010 elections will again meet international 
benchmarks for ``free and fair'' as did this year's provincial 
elections.
    At the same time, while the capabilities of the ISF are steadily 
improving, and as we approach next year's elections, we will draw on 
all source reporting to develop scenarios for possible outcomes, and 
MNF-I will continue to assist the ISF where it can in preparation for 
possible acts of AQI terrorism. That said, we have not formally 
conducted an exercise aimed at the reeruption of sectarianism stemming 
from election results, as at this point we do not believe it likely. We 
will continue, however, to sharply focus on all possible outcomes 
related to the elections, including sectarian violence. In that regard, 
we will continue to be receptive to sharing our thoughts with you or 
your staff to advance your understanding of what we could face next 
year.

    Question. Lower oil prices and flat oil production have created a 
budget deficit in Iraq that could jeopardize the Iraqi Government's 
ability to undertake needed capital investments and meet fiscal 
operating costs.

  <bullet> What are we doing to get the Iraqis to be more efficient in 
        their budgeting? (They still spend more than $6 billion on the 
        public food distribution system, with experts estimating they 
        spend $6 delivering $1 worth of staples to more than half the 
        Iraqi population. Meanwhile, they are coming to us with 
        requests to fill shortfalls in their military modernization 
        budget perhaps because they know how important those matters 
        are to us.)

    Answer. We continue to work very closely with Iraqi Government 
ministries and provincial governments to improve budgeting. Our 
engagement is in coordination with the World Bank and International 
Monetary Fund (IMF) integrated programs to assist Iraq with public 
financial management. The Office of the Treasury Attache in Embassy 
Baghdad coordinates our engagement with the central government on 
budgeting, providing advisers who work with the Ministry of Finance 
regularly to help the Iraqis make the budget creation and execution 
processes more effective and efficient. In conjunction with the World 
Bank and IMF, Embassy officials also assist the Iraqis as they 
prioritize spending decisions, particularly in the face of limited 
budget resources. Similarly, economic officers in our Provincial 
Reconstruction Teams (PRTs) engage with provincial officials throughout 
the country on budgeting issues.
    Other U.S. assistance on budgeting comes from USAID and the 
Department of Defense's Task Force on Business and Stability Operations 
(TF-BSO). USAID provides technical assistance and training on public 
administration to both national and provincial government officials, 
and works with the Ministry of Finance to implement an electronic 
financial management system, which is operational in 251 spending units 
throughout the country. The TF-BSO and the Iraqi Ministry of Planning 
run the Procurement Assistance Center, which provides assistance to 
Iraqi contractors and national ministries on contracting and 
procurement practices.

    Question.What long-range financial commitments is the 
administration preparing to make to Iraq in terms of security and 
economic assistance?

    Answer. U.S. foreign assistance to Iraq is now, and will continue 
to be, guided by the principles of cooperation identified in the 
Strategic Framework Agreement (SFA). We will gauge our foreign 
assistance programs based on how effectively they advance the national 
interests of the United States. As stated by President Obama, an Iraq 
that is sovereign, stable, and self-reliant, and on the path for 
economic growth is in the best interest of both Iraq and the United 
States.
    Regarding security assistance, the administration is systematically 
developing options for supporting Iraq's security needs. The State 
Department is working closely with the Department of Defense to 
determine the most efficient and cost-effective ways to help the Iraqi 
Government equip and train its security forces (ISF) so that it can 
provide for its own internal security and establish a foundation for 
external defense capability by December 2011, when U.S. military forces 
withdraw. Ongoing and future activities associated with this effort 
include:

  <bullet> The Multi-National Security Transition Command-Iraq, working 
        with its Iraqi counterparts, is refining future needs of the 
        Iraqi Security Forces. The Defense Department and the State 
        Department are coordinating closely on the most effective means 
        for Iraq to procure the necessary equipment and how to 
        structure U.S. security assistance programs to assist in 
        procuring, fielding, and sustaining that equipment.
  <bullet> The State Department notified Congress in 2008 regarding all 
        potential arms sales for Phase I Counter-Insurgency Force and 
        Phase II Transitional Force development. We will continue to 
        provide this congressional notification for the next phase of 
        ISF equipment.
  <bullet> As part of establishing a normal bilateral security 
        assistance relationship with Iraq after December 2011, we 
        envision establishing an Office of Security Cooperation (OSC) 
        in Iraq. The United States currently operates OSCs or similar 
        organizations throughout the world. Typically, they are staffed 
        by DOD/military and other personnel under Chief of Mission 
        Authority who are responsible for managing and otherwise 
        supporting Foreign Military Sales, Foreign Military Finance, 
        and International Military Education and Training programs, 
        along with other forms of bilateral military engagement.

    While the United States is committed to assisting Iraq in 
developing the security forces necessary to achieving President Obama's 
goals of a sovereign, stable, and self-reliant Iraq, the Iraqi 
Government is aware that the United States expects it carry the larger 
burden of equipping its forces. Iraq has demonstrated its willingness 
to budget the necessary funds to meet its responsibilities, but budget 
deficits associated with falling oil prices have underscored the need 
for robust and continued U.S. security assistance.
    U.S. economic assistance for nonsecurity programs is focused in 
four areas:

  <bullet> We will promote democracy by working with the Iraqi people 
        and the U.N. to support the upcoming elections, help strengthen 
        civil society, and support democratic institution-building;
  <bullet> We will provide assistance to national and local Iraqi 
        institutions to strengthen their capacity to protect and 
        promote the rule of law, confront and combat corruption, and 
        deliver basic services;
  <bullet> We will help the millions of displaced Iraqis by supporting 
        countries already hosting refugees, cooperating with others to 
        resettle Iraqis facing great personal risk, and working 
        directly with the Iraqi Government, the U.N., and other 
        international agencies to resettle refugees and displaced 
        Iraqis; and
  <bullet> We will continue to assist the Iraqi Government establish 
        the framework for sustainable, broad-based economic growth.

    Question. The recent oil bid round reflected the challenges ahead 
for Iraq in terms of bringing in international business. Necessary 
legal frameworks are absent, and most responsible major companies are 
staying away. Do the Iraqis recognize this shortcoming and are they 
prepared to make drastic changes?

    Answer. The Iraqi Government recognizes the many challenges it 
faces in the development of its oil sector. The problem in developing a 
framework to regulate the management of the oil and gas sector is that 
neither the regional or federal governments have found a durable 
solution to delineate authorities. Therefore, the Iraqi Government is 
using previous laws to develop their oil sector until a new framework 
can be established. The previous laws do not permit foreign development 
of natural resources requiring the Parliament to treat each contract as 
a separate piece of legislation. Also, the previous laws do not reflect 
the new federal Iraq.
    The responsible major companies understand the risks involved in 
investing in Iraq. The Iraqi Government must either mitigate the risks 
to international oil companies or provide greater monetary incentives 
to encourage companies to assume these risks. The first bid round 
demonstrated that the international oil companies and the Iraqi 
Ministry of Oil were close in price. If the Iraqi Government had 
increased its price per barrel fee or if it had mitigated risk (causing 
the international oil companies to lower their price per barrel fee), 
then more tenders would have been awarded. Iraqi Government officials 
have indicated to us that they have learned an important lesson from 
the first bid round.

    Question. You made passing reference to the World Bank, how are 
they contributing? What have they been asked to do by the GOI?

    Answer. The World Bank plays a central role in Iraq's economic 
reconstruction and development. It manages approximately $500 million 
in donor contributions to the ``World Bank Iraq Trust Fund,'' which is 
part of the International Reconstruction Fund Facility for Iraq 
(IRFFI). And it has granted more than $500 million in International 
Development Assistance (IDA) credits. The World Bank has committed 
nearly all these funds to projects and programs which have benefited 
Iraq by improving education, health care, electricity, water supplies, 
banking sector reform, and public financial management--all areas where 
the Iraqis continue to look to the World Bank for policy planning and 
advice.
    Developed in close coordination with the Iraqis, the World Bank's 
Third Interim Strategy Note for Iraq (released last March) focuses on 
three areas: (1) Continuing support for economic recovery; (2) 
improving the management of public resources (human, natural, and 
financial); and (3) supporting policies and institutions that promote 
broad-based, private-sector-led growth, with the goal of revitalizing 
the private sector and facilitating job creation. Iraq's immediate 
interests in World Bank assistance include better managing public 
resources (through improved financial systems and a national resources 
assessment starting with energy resources), and developing private 
sector business and investment. With respect to the latter objective, 
the International Finance Corporation and Multilateral Investment 
Guarantee Agency (both parts of the World Bank Group) will play 
important roles. The new Interim Strategy Note also provides for an 
additional $500 million in new conventional lending from the World Bank 
to Iraq. In addition to being supported by a large team of local 
contractors, the World Bank office in Baghdad is expanding. Included 
among the recently added staff are an expert in private sector 
development and a director for management and administration who will 
handle much of what is necessary in order to increase the flow of 
shorter term visits by World Bank technical trainers and advisers.

    Question. Although the Kurdish region has been relatively calm, the 
International Crisis Group recently warned that a ``destructive 
political conflict'' could arise over Kirkuk as Iraqi army and Kurdish 
forces are arrayed in opposing formations. Can this confrontation be 
resolved, and what are the consequences if it is not?

    Answer. The status of Kirkuk is one of the most difficult issues 
facing Iraq as Saddam's brutalities have left a vexing and unhappy 
legacy in the province. Nonetheless, we remain optimistic about and 
committed to finding a peaceful solution to political conflict in 
Kirkuk, and we stress to all parties the need to refrain from 
provocative actions or inflammatory rhetoric. We support a negotiated 
approach as the means by which to achieve a consensus agreement on 
Kirkuk's status. Any solution imposed by one party over another is 
bound to fail and could result in violence that would harm all parties 
and the country as a whole. We continue to support the United Nations 
Assistance Mission for Iraq to help all Iraqi parties arrive at a 
framework for resolving disputed internal boundaries, including the 
status of Kirkuk. All of us want to ease tensions and cool the 
emotional temperature so individuals and families in the province can 
start to build stable lives and develop the economy. In this context, 
our diplomatic track is designed to fully complement our military's 
effort to foster cooperation between Kurdistan regional security forces 
and those of the central government in Baghdad. Leaders from both sides 
have expressed their commitment to working through the UNAMI-sponsored 
High Level Task Force, a forum created to all the parties to build 
mutual confidence and resolve issues peacefully and through 
negotiations.

    Question. The United Nations Assistance Mission (UNAMI) has 
proposed several confidence-building measures designed to ease the 
tensions surrounding Kirkuk and the other disputed territories. Please 
talk about their proposals and what actions you are taking to promote 
these measures.

    Answer. UNAMI produced a comprehensive report in early 2009 aimed 
at highlighting the areas of dispute between Arabs and Kurds in 
northern Iraq. It has since established confidence-building measures 
between both sides, most notably the UNAMI-sponsored High Level Task 
Force which endeavors to convene weekly meetings to facilitate dialogue 
between the Government of Iraq (GOI) and the Kurdistan Regional 
Government (KRG). We strongly support UNAMI's work to frame a just and 
durable solution to tensions between the Arab and Kurdish communities 
and to encourage cooperation among the various political parties and 
actors on the issue of disputed internal boundaries (DIBs).
    We continue to work closely with UNAMI to push negotiations between 
the Arabs and Kurds forward. We have encouraged all Iraqi leaders to 
refrain from provocative actions and inflammatory rhetoric and to 
approach these issues peacefully and in good faith. In an effort to 
facilitate progress, we recently named a senior adviser for Northern 
Iraq who is resident in Kirkuk, and who will work closely across the 
board with relevant parties. During his most recent trip, Vice 
President Biden discussed DIBs in his meeting with Masoud Barzani, the 
President of the KRG. At the same time, we have refrained from 
supporting individual elements of the UNAMI report, preferring to 
support and encourage the parties to arrive at mutually agreeable 
measures.

    Question. Much has been made of Arab-Kurd tensions in the North. 
Recently, General Odierno proposed deploying troops to help defuse the 
situation. Is this something you and he have discussed? How is this 
viewed among the parties?

    Answer. The lack of progress in resolving territorial disputes and 
the presence of Kurdish security forces in disputed areas continue to 
be a source of tension between Arabs and Kurds. Previous incidents in 
disputed areas between Kurdish Peshmerga forces and Iraqi security 
forces (for example, the confrontations at Khanaqin in Diyala in 
September 2008) have risked escalating into conflict. These incidents 
were resolved through the timely intervention of U.S. Forces, which 
continue to maintain personnel in these areas.
    General Odierno and I have discussed Prime Minister Maliki's 
initiative on joint patrols with many Iraqi leaders, among them the PM 
himself and KRG President Barzani. Maliki's initiative, which is 
intended to provide greater security along the fault line between ISF 
and Peshmerga forces, could end up as a longer term confidence-building 
measure. But the plan is just that--a plan--and is not in the 
implementation stage; talks involving all sides continue.
    It is unlikely that either side would intentionally instigate a 
military confrontation, and leaders from both sides have stated their 
commitment to resolving disputes peacefully, but there is always the 
potential for miscalculation or provocation, especially as U.S. forces 
depart and the profile of Iraqi security forces units rises. Continued 
U.S. engagement with the Government of Iraq and the Kurdistan regional 
government remains crucial to containing tensions.

    Question. Oversight of Iraq operations and reconstruction continues 
to be a challenge, at the project level by implementing agencies, by 
the inspectors general, as well as in terms of staff visits that put 
additional burdens on your assets for travel and site visits. More than 
$50 billion has been spent on reconstruction, and tens of millions have 
been allocated to the Special Inspector General and other initiatives, 
but the recipe is still not right, with contractors supervising 
contractors who are all spending money that is not theirs. What can you 
do to improve your oversight of programs and to improve access by 
contracting officers, government inspectors, and even congressional 
staff.

    Answer. Oversight of Department of State contracts in Iraq issued 
by the Bureau of Acquisitions Management is provided by the contracting 
officer in Washington and by the contracting officer's representative 
in Iraq. For contracts signed at post, both the contracting officer and 
the contracting officer's representative are located in Iraq. Contracts 
conform to State Department acquisitions regulations and appropriate 
laws.
    Additionally, a Memorandum of Understanding signed in July 2008 by 
the Department of Defense (DOD), the U.S. Agency for International 
Development, and the Department of State began a joint partnership to 
use the Synchronized Predeployment and Operational Tracker (SPOT) 
system. It was implemented in response to the National Defense 
Authorization Act 2008, Section 861 (Public Law 110-181) to be the sole 
joint system for contractor accountability and oversight for 
contingency contracting. All contractor personnel to include U.S. 
citizens, third party nationals, and local nationals working on a 
Department of State contract in Iraq must be entered into SPOT. This 
system already gives the program managers working with their 
contracting officers ability to monitor support services used and 
movements of personnel throughout Iraq. As it matures with data, SPOT 
will give the Department of State's program offices and contracting 
officers greater leverage to monitor the contractors' compliance with 
rules of use of force, value of level of effort to perform work, use 
resources, and contractor-held property in Iraq.
    It is State Department policy that foreign and domestic offices 
cooperate fully with inspections and audits, and to provide official 
visitors with all appropriate access and information they require in 
connection with their missions.

    Question. Please share with the committee data on how many 
congressional staff delegations have visited Iraq in the last 12 months 
from committees of jurisdiction over State/USAID operations, and sites 
they have visited outside of Baghdad and military venues sites.

    Answer. Eleven congressional staff delegations (Staffdels) visited 
Iraq during the period 01 September 2008 to 01 September 2009; this was 
an increase of one from the same period in 2007-08. Of those 11, two 
contained staff from a committee of jurisdiction over Department of 
State or USAID programs or funding. None left Baghdad.

    Question. What is the status of Basrah Children's Hospital? What 
have been U.S. outlays toward that project? Does the United States have 
any remaining interests in or personnel working on this project? Please 
provide details regarding Project Hope's contributions. Has the site 
been visited by any congressional staff delegations?

    Answer. U. S. Government (USG) funded construction work on the 
Basrah Children Hospital (BCH) building itself has been completed. 
Construction remains on related facilities, such as a residence hall, 
but the principal remaining tasks are staffing and arrangements for the 
delivery and commissioning of high-tech equipment, which include U.S. 
involvement. BCH is expected to open for out-patient services on 
October 14, 2009, with a phased opening for inpatient services to 
follow on or about December 1, 2009.
    Authorized USG expenditures for the project totaled $111 million. 
The majority of these funds have been obligated and disbursed. However, 
BCH also receives USG-funded health sector training through U.S.-funded 
grants for oncology-radiation training and support, for example.
    The USG has no further role in the remaining, on-going United 
Nations Development Program (UNDP) sponsored projects related to the 
BCH, which include roads, parking, exterior lighting, water-pumping 
stations, electrical grid connections, sewage, waste disposal and 
similar projects. These projects however are not anticipated to delay 
or to have any impact on the projected opening date. Through our 
contractors, the USG continues to have a limited role in training 
hospital personnel and in facilitating the delivery and installation of 
high-tech equipment.
    Project Hope, the long-established U.S. nongovernment organization, 
has arranged for the donation of several items of high-tech equipment, 
such as the Siemens-donated MRI and CT scan. Project Hope is also 
tracking sustainment and maintenance supporting issues. Project Hope is 
also providing long-term specialized training for 306 clinical interns 
through 2013 and it projects long-term pediatric oncology training for 
92 medical professionals (80 nurses and 12 medical doctors) through 
2020.
    Varian Medical Systems, Inc., has donated the linear accelerator. 
In addition, much of the Philips-donated equipment (x-ray devices) is 
already on-site. Numerous other items of routine hospital supplies and 
equipment (2,598 line items) have already been installed, as have 
furniture and office equipment. Arrangements now are being finalized 
for the delivery and installation of these high-tech equipment sets. 
Because of the complexities involved with the installation and 
``commissioning'' of the very expensive high-end equipment, as well as 
warranty considerations and technical training requirements for staff, 
delays are anticipated, but they should not impact the December 1 
opening date for in-patient oncology services. Deep cleaning to make 
the hospital ready for the safe treatment of patients has begun, and 
the Ministry of Health expects full in-patient surgical services to 
commence January 1, 2010.
    Due to travel difficulties and past security concerns in Basrah, 
there have not been any Codel or Staffdel visits to the Basrah 
Children's Hospital.

    Question. What is the status of the Mussayib Power Plant? What are 
the total outlays toward this project to date? Has this site been 
visited by any congressional staff delegations?

    Answer. There are two power plants in Mussayib, located in Babil 
province, Iraq: the Mussayib Thermal Plant consisting of four 300 
megawatt (MW) thermal units and the nearby, but not adjacent, Mussayib 
Natural Gas Power Plant. The USG has worked on both sites. We believe 
this question relates to the Gas Power Plant.
    Ten General Electric (GE) combustion turbine generators and a 
40,000-barrel per day petroleum topping plant (mini refinery) have been 
commissioned at the Mussayib Gas Power Plant. Eight turbines are 
currently operational. Using fuel from the topping plant, the eight 
units have an aggregate capacity of 360 MW, though the actual 
generation is less. For example, during the week of September 10-16, 
2009, the plant generated an average hourly output of 219 MW, for a 
load factor of only 61 percent.
    The project has gone through two phases. In the first, the Ministry 
of Electricity contracted with South Texas Industrial Services (STIS) 
to construct the plant. A contract dispute between the Ministry and 
STIS resulted in that company demobilizing in 2006. In the second 
phase, work was resumed by the U.S. Army Corps of Engineers, which 
completed installation of the turbines and the topping plant referenced 
above.
    There were no USG expenditures in the first phase; and Ministry of 
Electricity (MOE) expenditures in that phase totaled more than US$330 
million. Authorized USG expenditures in the second phase were US$35 
million. With the completion of the second phase, the project was 
turned over to the MOE on July 21, 2006. The MOE was to complete the 
commissioning of the remaining 2 of the 10 units (#9 & #10), according 
to the original plan, and USG engineers provided them with a detailed 
action plan to accomplish this task. To date, they have not started 
this work due to budget constraints.
    Although several congressional delegations visited the Doura Power 
Station, none has visited either of the two Mussayib Power Plants to 
our knowledge.

    Question. What efforts are in place to assist the COR to develop as 
an institution?

    Answer. USAID's ``Legislative Strengthening Program'' is designed 
to improve the functioning of the Council of Representatives in 
executive oversight, the legislative process, and constituent outreach. 
Established at the request of the COR's senior leadership, the 
multiyear program concentrates on establishing a Parliamentary 
Development Center (PDC) to organize the COR's long-term training and 
institutional development needs. (The COR covers the costs of 
establishing, building, and staffing the PDC.) The program is comprised 
of a team of international legislative professionals and local experts, 
who reside in Baghdad and work on a daily basis with Representatives 
and staff as embedded advisers, trainers, and mentors. The program 
primarily partners with legislative and oversight committees, the 
Secretariat, and administrative directorates (e.g., the clerk's office) 
to assess current operations and help implement agreed-upon changes and 
improvements. COR leadership requested that the program provide 
orientation training to COR members following the January 2010 national 
elections.
    The International Republican Institute (IRI), a Democracy, Human 
Rights and Labor (DRL) grantee, is working with the COR to improve 
transparency and effectiveness in managing public dialogue within 
legislative processes. Specifically, IRI is fostering the development 
of the Iraqi COR Research Directorate, whose functions include 
research, library services, drafting of budgets, and legal review of 
bills (similar to Congressional Research Service and Congressional 
Budget Office functions in the U.S. Congress).
    In addition, IRI conducts conferences and training sessions for COR 
members on public speaking and constituency outreach. IRI is also 
enhancing the Internet capabilities of the COR and assisting with Web 
site development, media access, and the creation and use of an Intranet 
to improve communications. IRI works especially closely with the COR 
Media Directorate, and provides customized technical training for Media 
Directorate staff.
    The National Democratic Institute (NDI), which is another DRL 
grantee, is building the capacity of legislators through training 
sessions for staff of the COR Secretariat, the Speaker's office, the 
President's office, the COR and Parliamentary Caucuses. NDI also 
arranges study tours for COR members and staff on good governance. As 
an outgrowth of its consultations, NDI has worked closely with the COR 
Research Directorate to establish a dedicated Budget Office that will 
provide up-to-date statistics and accounting information to Iraqi 
Representatives when debating financial issues.

    Question. Is the Department considering lengthening the tours for 
foreign service officers now that living conditions at least in 
Baghdad, are more humane? What other changes are you contemplating to 
further normalize civilian presence, and impact? Can you make greater 
use of locally engaged staff?

    Answer. The Office of the Inspector General recommended that the 
tour of duty be adjusted when each direct-hire employee can be housed 
without having to share apartments (Recommendation 50, OIG report ISP-
I-09-30A). Given conditions in Baghdad, including both the overall 
security environment and the housing shortage which means that most 
direct-hire employees share apartments, we believe 1 year remains the 
appropriate standard tour length at this time. We will review the tour 
length when conditions change sufficiently that a mandatory 2-year 
assignment would not pose undue hardship.
    We are comprehensively reviewing our presence to find means to 
further normalize Embassy operations. The Embassy is continuing to make 
greater use of Iraqi staff. There are currently 56 Iraqi staff on board 
with another 19 in the recruitment and clearance pipeline; post would 
like to eventually increase this to approximately 125 people.

    Question. In your statement you talk at length about the SFA, and 
the various committees that are working to implement the agreement. Is 
there a financial commitment to the participation by the Government of 
Iraq? Is there a financial cost to our participation?

    Answer. The United States-Iraq Strategic Framework Agreement (SFA) 
is a mechanism for outlining our bilateral engagement on policy and 
program issues, including our assistance transition. The SFA does not 
commit either the Government of Iraq (GOI) or the U.S. Government to 
expend funds. All cooperation under the SFA is subject to laws and 
regulations of both countries, including with respect to the 
expenditure of funds. Embassy Baghdad officers, who are direct U.S. 
hires, take the lead in cochairing the various working groups with the 
GOI.

    Question. Going forward, should we be making a long-term financial 
commitment to Iraq assistance of all types and channel them into 
traditional program lines? If so, what should those figures be as you 
project them from today for the next 5 years?

    Answer. It is certainly in the United States strategic interest to 
continue building a robust relationship with the Government of Iraq, 
including through programs aligned with the United States-Iraq 
Strategic Framework Agreement (SFA). As Iraq's Government and 
democratic institutions mature, we anticipate our assistance will 
indeed evolve into more traditional program lines as we move to a more 
normal relationship. At the same time, we should assure the Iraqi 
people that the United States will continue to assist Iraq's 
development and reintegration into the region, as well as help the 
Iraqis build relationships with the rest of the world.
    As the U.S. military continues to drawdown in Iraq, and we move 
toward a relationship guided by the SFA, we expect our ongoing, 
nonsecurity related assistance to Iraq to steadily decline as the GOI 
is able to better meet the needs of its population. However, it is 
impossible to say with certainty how conditions on the ground will 
change over the next 5 years, and therefore what our assistance levels 
will look like. We can say, however, that as the U.S. role in Iraq 
transitions from being military-led to civilian-led, we will continue 
to align our assistance to key programs that support the strategic 
interests of the United States.

    Question. Describe your effort and that of the administration to 
balance competing regional interests that are necessary to Iraq's 
stability and future. For instance, we have strategic priorities with 
respect to Iran, Syria, Turkey, Kuwait, Saudi Arabia, and Jordan that 
may differ from Iraq's. How is our diplomatic mission being 
coordinated, and are meetings occurring of Iraq's neighbors regularly 
to promote a coordinated approach across the region? Should they be? 
What forum would you recommend for such meetings?

    Answer. The United States does seek to balance varied and sometimes 
competing interests in the Middle East that impact Iraq's stability. As 
Ambassador to Iraq, I am best positioned to discuss how we seek to 
ensure that our efforts complement our goal for an Iraq that is 
sovereign, stable, and self-reliant.
    Over the last year, Iraq has increasingly relied on bilateral 
engagement to strengthen its ties with neighbors. We are supportive of 
this approach, but we believe that some multilateral fora are also 
helpful. For example, we find Iraq's participation in meetings between 
the Gulf Cooperation Council, Egypt, and Jordan to be a valuable tool 
for increased reintegration into the region. In the past, the Expanded 
Neighbors of Iraq Process and the International Compact with Iraq have 
also been important mechanisms to help facilitate international 
engagement, particularly on debt relief and economic reform issues. 
Iraq's participation in such settings not only helps to advance 
progress on Iraq's reintegration into the region, but offsets negative 
interference from neighbors like Iran. The Department of State 
regularly encourages Iraq's neighbors to increase their political, 
economic, and cultural engagement with Iraq.

    Question. COM personnel traveling to Iraq have some great options 
for direct regional flights to Kuwait or Amman that allow them to 
arrive fresh and ready to work, but that last hour to Baghdad can take 
a day or more to travel and deposit someone at the Embassy completely 
spent.

  <bullet> a. Does the Department pay the DOD for the dedicated 
        transport flights/rotators that its personnel travel on from 
        Amman and Kuwait? If so, what is the cost breakdown of that 
        service? If not, please provide an estimate for that cost, that 
        DOD absorbs.

    Answer. Personnel under Chief of Mission authority traveling 
between Baghdad and Kuwait use military air on the basis of the 2004 
``Memorandum of Agreement Between Department of State and Department of 
Defense for Support Services in Iraq.'' The Department of Defense does 
not charge the State Department for this transport and we have no 
visibility into Defense funding for this service and therefore cannot 
estimate the cost.

  <bullet> b. Does the Department pay for hotel service in Amman and 
        Kuwait for overnights or stays by its personnel who are 
        transiting, or are those paid for through travel vouchers? Are 
        personnel traveling on R&R permitted to submit those costs on 
        vouchers as well? Please provide details on personnel travel 
        costs to and from Iraq for the most recent complete year, it 
        would be particularly useful if this last leg of the journey 
        could be broken out.

    Answer. Per State Department travel policy, individuals performing 
official travel on State Department orders, including going on R&R, 
submit travel vouchers upon the completion of their trip and are 
reimbursed for their allowable costs through this mechanism.
    Generally, due to the timing of commercial flights and connecting 
military air flights to and from Amman, incoming travelers overnight 
for one night. They would submit a voucher and be reimbursed for their 
hotel costs. Outgoing passengers are normally able to leave Baghdad and 
fly onward from Amman the same day. If because of flight schedules an 
employee must overnight to catch an onward flight from Amman, hotel and 
per diem would be authorized. Conversely, in most instances, there is 
not an overnight stay required when transiting through Kuwait. If a 
traveler in Kuwait choose to stay in a hotel room while waiting for 
their onward flight, that would be at their personal expense.
    To date, Embassy Baghdad has expended approximately $5.4 million in 
FY09 on R&R travel costs because we have no visibility into Department 
of Defense costs incurred for the last leg of travel from Amman or 
Kuwait into Baghdad, we cannot break out the costs for that portion of 
travel. Assignment travel to and from post is funded centrally by the 
State Department.

  <bullet> c. What is the cost of the associated ground support of ISU 
        Kuwait, whether direct hires or through the KBR contract?

    Answer. ISU Kuwait costs for FY 2009 total approximately $746,600 
for operations and approximately $2 million in KBR contract costs to 
support travel into and out of Iraq for all agency personnel under 
Chief of Mission authority, VIPs, and some contract personnel, as well 
as shipping freight into and out of Iraq.

  <bullet> d. At what level can prohibitions on commercial air travel 
        be waived? How many waivers have been issued? What steps are 
        being taken to clear the path for that to be a more regular 
        means of travel for U.S. personnel? What are the hurdles? Can 
        Congress be helpful?

    Answer. Embassy Baghdad grants extremely limited exceptions to the 
prohibition on the use of commercial aircraft on a case-by-case basis 
and with a compelling justification that the requested travel is 
mission critical. Approximately 12 exceptions were granted in the past 
calendar year.
    We understand that milair travel in and out of Baghdad is difficult 
and can negatively affect the morale of the residents of the Embassy. 
Our goal is to replace the use of military with civilian air as soon as 
it is safe to do so.
    The Embassy and the military continue to work closely with the 
Government of Iraq to make Baghdad International Airport (BIAP) safe 
and secure for commercial air travel and the Embassy's Emergency Action 
Committee (EAC) periodically reviews whether local conditions warrant a 
change in our security policies. To date, local conditions still do not 
support either the use of the civilian side of the airport or the use 
of regular commercial aircraft. The Embassy is exploring routine 
commercial air options that would provide the required level of 
security.
    At this time, while we will keep Congress apprised of any 
situational changes, we do not believe there is anything Congress can 
do to ameliorate the situation and we are grateful for your offer of 
assistance.

    Question. What sense do you have that the elections slated for 
January 2010 will change the playing field, in one direction or 
another, in terms of international investment and technical assistance? 
In other words, are politicians campaigning on this issue? Are there 
assurances that oil or other contracts will be honored should Maliki be 
displaced? Does Parliament back this international business and in 
particular oil activity?

    Answer. The U.S. Government has pressed the Iraq Government to 
respect the sanctity of commercial contracts. If any Iraqi Government, 
including the new government that will follow next year's elections, 
started to cancel contracts without due process or compensation, it 
would deter much-needed foreign investment. Most, if not all, Iraq 
Government officials understand this is not in Iraq's best interests. 
Specifically, they understand that foreign investment is vital to 
realizing Iraq's potential as a major source of oil and gas for the 
world's economy. We believe any future Prime Minister would understand 
this. None of Iraq's politicians have openly campaigned on a platform 
calling for strict limitations on foreign investment.

    Question. What do you take from the fact that the field in still 
restive Diyala province received no bids, and that tremendous gaps were 
seen in the expected Iraqi price and the bids for the two fields in the 
Tameem province, whose capital is Kirkuk? Was this a sign of a 
reluctance to get between the Kurds and the Central Government or 
simply a calculation that the security risks still demand a high 
overhead for extracting oil?

    Answer. We understand that the Mansuriya field in Diyala province 
received no bids from international oil companies due to the inordinate 
amount of security and technical risk in extracting the gas and 
transporting it to market.
    As for the Bai Hassan and Kirkuk oil fields, there were several 
risk factors: political, technical, security, and financial. Companies 
that bid on the two fields took all of those aspects into their 
calculation and came up with a price higher than what the Iraqi 
Government thought it would take to produce from the fields. The Iraqi 
Government only looked at the cost of production, and did not calculate 
the risk factors that would be involved in the development of the 
fields.

    Question. What needs to change for international companies to come 
to Iraq in greater numbers? Are the internal politics still too 
uncertain for most companies? Are other dynamics at play?

    Answer. Iraqi officials are fond of saying that Iraq is open for 
business. In reality, Iraq has not taken all the necessary steps to 
establish a clear and effective regulatory framework. While internal 
politics are an issue, corruption, lack of modern commercial 
legislation protecting investments, and lingering security concerns 
have also made improving Iraq's business climate a slow and difficult 
process. We are committed through the Strategic Framework Agreement to 
assisting Iraq in attracting foreign investment.
    Toward that goal, the Department of State along with the Department 
of Commerce and the U.S. Chamber of Commerce are organizing the United 
States-Iraq Business and Investment Conference to be held in Washington 
on October 20-21. The conference will promote current investment and 
business opportunities for U.S. and Iraqi firms, address the challenges 
to doing business in Iraq, and provide opportunities for U.S. firms to 
meet with Iraqi ministers and other senior GOI officials.
                                 ______
                                 

  Responses of Ambassador Christopher Hill to Questions Submitted by 
                      Senator Robert P. Casey, Jr.

                             iraqi refugees
    Question. With approximately 1.5 million Iraqi refugees living in 
Syria, Jordan, and other nations and 2.7 million internally displaced 
persons within Iraq, the need for the Iraqi Government and the 
international community to address this issue remains. Ambassador Hill, 
during your confirmation hearing, I stressed the need for our 
government to address the plight of more than 3 million people who face 
dire circumstances. Following this discussion, I held a subcommittee 
hearing on the Iraqi refugee crisis and sent letters to Secretary 
Clinton and Secretary Napolitano encouraging them to review policies 
that are impeding the resettlement of Iraqi refugees in the United 
States.

  <bullet> Ambassador Hill, can you provide the committee with your 
        assessment of the Iraqi Government's efforts to resettle those 
        internally displaced persons and encourage the return of 
        refugees from surrounding countries? What actions have you 
        taken to improve the Iraqi Government's capacity to reintegrate 
        refugees?

    Answer. As security has improved, Iraqis have slowly started to 
return home. The U.N. High Commissioner for Refugees estimates that 
220,000-300,000 Iraqis returned to their neighborhoods, predominantly 
in Baghdad, in 2008, and in 2009 nearly 142,000 had returned as of 
August. The majority of returnees have been internally displaced 
persons. Sustaining improvements in security are key to encouraging 
returns. Achieving sustainable large-scale returns will also require 
the Iraqi Government's political commitment, as well as improved 
services, political accommodation, and economic development.
    The Iraqi Government has undertaken a number of initiatives to 
facilitate and encourage voluntary returns. However, increased 
resources and additional capacity-building are required to adequately 
meet the needs of displaced Iraqis. We look forward to working more 
with the Iraqi Government and the international community to further 
develop programs and structures, and encourage the Iraqi Government to 
devote higher level attention to these issues. Particular areas of 
focus include addressing property disputes and improving access to 
shelter, security, employment, and services for those returning, as 
well as providing assistance for those displaced that opt to 
permanently settle in the area of their displacement. In addition, the 
Iraqi Government provides a cash grant to returnees of 1 million Iraqi 
dinars (approximately $850) per family, and in mid-August reported that 
32,135 families had received the grant.
    On July 24, Secretary Clinton announced more than $100 million in 
new assistance to support the return and reintegration of displaced 
Iraqis. The funds will be used to support assistance programs 
implemented by the United Nations High Commissioner for Refugees, the 
International Organization for Migration, and nongovernmental 
organization partners in Iraq. In total, the U.S. Government has made 
available $346 million in assistance this fiscal year, and we expect to 
make more contributions later this year. We have maintained a capacity-
building program for Iraq's Ministry of Displacement and Migration 
since the ministry's inception, and, for example, have supported return 
assistance centers run by the ministry, where displaced Iraqis can 
register their intent to return, document their property claims, and 
seek restitution for their property.

    Question. What actions, if any, have been taken by the U.S. 
Government to review its policies on the resettlement of Iraqi refugees 
in the United States?

    Answer. We provide refugee resettlement in the United States for 
the most vulnerable Iraqi refugees, for whom return to Iraq would be 
difficult, if not impossible. This includes those who have worked with 
the U.S. Government, certain U.S. Government partners, U.S.-based media 
and nongovernmental organizations, and individuals with approved 
immigrant visa petitions. In FY 2008, the United States admitted almost 
14,000 Iraqi refugees, exceeding our goal of 12,000. For FY 2009, we 
have already exceeded our target of admitting 17,000 Iraqi refugees. In 
addition, as of June 2009, we have issued 2,081 Special Immigrant Visas 
(under section 1244 of the 2008 National Defense Authorization Act) to 
Iraqis who have faced threats because of their work for us or on our 
behalf.
    We do not favor or discriminate against any single refugee 
population in our resettlement support. The initial reception and 
placement program administered by the Department of State addresses the 
immediate needs of resettling refugees. Our public-private partnership 
with national resettlement agencies anticipates private sector 
contributions to meeting the needs of individual refugees in each 
community. The current economic situation has made it more difficult 
than normal for agencies to raise the support they need to provide 
goods and services to refugees and for refugees to find early 
employment. The Bureau of Population, Refugees, and Migration has 
awarded $5 million this year to our resettlement partners to assist 
with emergency housing needs for the most vulnerable refugees. We also 
intend to raise the amount of per capita funding for FY 2010 to help 
address the rising cost of initial resettlement. The White House has 
initiated a review of the domestic refugee program with all 
stakeholders. The administration intends to address critical issues 
immediately and work on structural issues going forward.

    Question. What actions, if any, has the U.S. Government taken to 
assist the U.N. High Commissioner on Refugees, the lead agency 
responding to the Iraqi refugee crisis?

    Answer. To date in FY 2009, the USG has made available $346 million 
in humanitarian assistance for Iraqis displaced inside Iraq and in the 
region. Of this amount, $198 million has been directed to the U.N. High 
Commissioner for Refugees (UNHCR). We also continue to encourage donor 
countries to contribute to UNHCR's humanitarian assistance appeal for 
Iraq.
                         new political dynamic?
    Question. The January 2010 elections have the potential to be 
transformative for the Iraqi political landscape as well as for 
continued U.S. military presence in Iraq. This summer, Prime Minister 
Nouri al-Maliki announced that his Dawa Party would leave the Shiite 
coalition to perhaps form a secular coalition or to forgo all 
alliances. It is my understanding that a pan-Shiite coalition without 
the Dawa Party would not be able to win. Ambassador Hill, in recent 
statements, you have indicated that the political transformation that 
the Iraqi political parties are undergoing is positive. It is positive 
because some parties are looking beyond the sectarian divide and 
finding coalitions they believe can govern. However, the issue of 
functioning governance still remains a problem.

  <bullet> Can you give us a picture of Iraq's political landscape in 
        January 2010? Are these emerging alliances focused on the 
        issues of corruption, service delivery, economic performance 
        and security or are they merely providing a nationalist 
        counterweight to those parties with religious or ethnic 
        identities?

    Answer. The political landscape in Iraq remains very fluid. 
Political parties are starting their national election campaign 
strategies and negotiating with potential coalition partners in the 
runup to January's election. As these groups attempt to maximize both 
their share of the vote and their influence in the next government, 
they continue to evaluate what issues are most likely to resonate with 
the electorate. Service delivery, security, economic growth, and 
anticorruption were all key platforms in the January provincial 
elections and retain appeal for voters in the national elections. We 
are seeing efforts at building cross-sectarian alliances and anticipate 
that the governing coalition after the elections will include members 
from several groups.

    Question. As the United States withdraws troops, some are concerned 
that Iran will try to increase its influence inside Iraq. What is your 
assessment of Iran's ability to influence Iraqi politics today?

    Answer. Iran continues to invest heavily to gain and sustain 
political and economic influence in Iraq given the two countries' 
shared religious and geographic ties. The most troubling aspect of 
Iran's activities regarding Iraq involves its support for militant 
Iraqi Shia groups primarily through its Islamic Revolutionary Guard 
Corps-Quds Force (IRGC-QF). Quds Force activities have been linked to 
attacks on U.S. as well as Iraqi forces and civilians.
    The Government of Iraq (GOI) has denounced interference in its 
internal affairs that threatens the stability of Iraq and the security 
and welfare of its people. Through reciprocal visits with Iran at the 
head-of-state and Foreign Minister levels, the GOI has sent tough 
messages warning Iran against interference in Iraq's internal politics, 
while encouraging improved bilateral relations, economic cooperation, 
and cultural/religious exchanges. As the GOI continues to increase its 
regional and international engagement, it is developing a more coherent 
policy on Iran that encourages constructive, peaceful relations based 
on mutual respect.
                              human rights
    Question. There has been a disturbing rise in human rights abuses 
ranging from an increase in honor killings to violence against 
homosexuals. These types of human rights abuses undoubtedly increase 
the feeling of insecurity among a significant portion of the 
population. I believe that if the United States does not ensure that 
international human rights standards are upheld, our training and 
advising of Iraqi security forces will be undermined.

  <bullet> Ambassador Hill, what steps is the United States Government 
        taking to ensure that proper human rights standards are 
        practiced by the Iraqi security forces as well as the Iraqi 
        Government?

    Answer. The U.S. Embassy and the Multinational Forces in Iraq 
insure that the Iraqi security forces and the Iraqi Government maintain 
appropriate human rights standards by vetting Iraqi security forces, 
encouraging robust human rights training, and linking continued foreign 
assistance to human rights standards.
    The U.S. Government provides a variety of security assistance 
programs to train and equip the Iraqi security forces, including 
Foreign Military Financing (FMF) to help the Iraqi Security Services 
obtain the equipment needed to modernize, and International Military 
Education and Training (IMET), which provides training to Iraqi 
military and related civilian personnel. Officers at the U.S. Embassy 
in Baghdad and in Washington vet units and/or individuals receiving 
IMET, per the terms of the Leahy amendment. In addition, the USG has 
emphasized to the Iraqi Government that continued provision of FMF and 
other security financing programs will be contingent on the compliance 
of Iraqi security forces with international human rights and ethics 
standards.
    All U.S. and coalition training programs in Iraq emphasize the 
importance of adhering to international human rights standards and have 
instilled improved professionalism of the Iraqi Security Services. The 
Iraqi Center for Military Values, Principles, and Leadership 
Development (CMVPLD) continues to provide the capability to 
professionalize the Iraqi Army, offering instruction in five areas, 
including Professional Military Values, Leadership, the Profession of 
Arms, Law of Armed Conflict/Human Rights, and the Role of the Military 
in a Democracy. Ethics training is included in basic combat and 
leadership programs. In 2009, CMVPLD is delivering ethics training at 
the division level, as well as conducting training assessment visits to 
the Regional Training Centers (RTCs) and the Divisions. In addition to 
these programs under the Ministry of Defense, the Minister of Interior 
has personally instructed the Iraqi Police that their training also 
focus on ethics and human rights.

    Question. I understand that you have requested that the Ministry of 
the Interior to investigate allegations that Iraqi security forces are 
or were involved in attacks against homosexuals. How confident are you 
in the ability of the Iraqi Government to investigate this matter in a 
fair and transparent manner?

    Answer. As Secretary Clinton said on September 11 at the Roosevelt 
Institute, we must condemn violence based on sexual orientation and 
gender identity. The U.S. Government continues to promote the human 
rights of all Iraqi citizens, including those in the lesbian, gay, 
bisexual, and transsexual (LGBT) community, in our civilian programs 
and training with the Iraqi security forces. We condemn acts of 
violence and human rights violations committed against individuals in 
Iraq as a result of their sexual orientation or gender identity. We are 
working with local and international nongovernmental organizations 
(NGOs) as well as the United Nations Assistance Mission for Iraq and 
our diplomatic partners to ensure that the rights of Iraqi citizens are 
protected and respected. The Embassy has raised the issue of violence 
against LGBT Iraqis with senior Iraqi Government officials, including 
the Minster of Human Rights, and has urged them to respond 
appropriately to all credible reports. We have confidence that the GOI 
will ensure that the rights of all Iraqi citizens are protected and 
upheld, regardless of sexual orientation and that every effort will be 
made to conduct the investigation into the allegations in a fair and 
transparent manner.

    Question. I have heard reports that the status of women in Iraq is 
not improving, but deteriorating. There have been reported increases in 
child marriage and honor killings. First, do you agree with this 
assessment? If so, what actions is the U.S. Embassy taking to ensure 
equality for women in all aspects of life?

    Answer. Child marriage, so-called ``honor killings,'' and human 
trafficking are severe problems in Iraq and are of serious concern for 
the Department of State. While these cases are extremely difficult to 
track, the Department's Human Rights Report and Trafficking in Persons 
Report both note the severity of these problems. Economic desperation 
has led families in Iraq to sell young women, including children, for 
the traditional institution of ``temporary marriages'' or ``muta'a.'' 
Under these arrangements, the marriage would be terminated after a 
predetermined period of time and the young women's family would receive 
a dowry from the husband. These arrangements, like sex trafficking or 
engagement in prostitution, make young women vulnerable to ``honor 
killings'' upon their return to their families. Single female refugees 
are also reportedly hesitant to return to Iraq for fear of ``honor 
killings.''
    Iraq's Ministry of Interior has voiced concern over returning 
victims of trafficking to their families for fear of ``honor 
killings.'' The Government of Iraq (GOI) does not fully comply with the 
minimum standards for the elimination of trafficking but has taken 
significant steps to do so and has drafted comprehensive antihuman 
trafficking legislation. Ambassador Patricia Haslach, who has been 
designated as the Inter-Agency Coordinator for Women's Issues and 
Programs at Embassy Baghdad, follows these issues closely and works 
with the GOI and the Ministry of Human Rights to address these and 
other important concerns regarding the status of women and girls in 
Iraq.
    The USG is also funding programs to help the Government of Iraq 
build its capacity to combat trafficking in persons and to assist Iraqi 
victims of trafficking. In addition, in partnership with the 
Department's Bureau of Democracy Human Rights and Labor, the 
Secretary's Office for Global Women's Issues manages a program to 
combat gender-based violence through the Heartland Alliance. In 
cooperation with six participating legal NGOs in Iraq, the program 
provides training for legal, social, and medical services for victims 
of gender-based violence in Iraq. The program also seeks to improve 
government responses to gender-based violence and to foster broader 
awareness and sensitivities of these issues among key governmental and 
judicial systems stakeholders.
                                 ______
                                 

  Responses of Ambassador Christopher Hill to Questions Submitted by 
                         Senator Jeanne Shaheen

    Question. In March 2009 testimony before the House Armed Services 
Committee, the Special Inspector General for Iraq Reconstruction 
(SIGIR) estimated that as much as 15-20 percent of our reconstruction 
funds in Iraq (between $3 and $5 billion) have been wasted in Iraq. 
This is a difficult issue--due to staffing shortages and security 
issues--but how are we addressing it today, and how can we increase 
oversight to make sure these instances of waste do not recur?
    What specific steps would you recommend to address these oversight 
and waste concerns?

    Answer. We take management and oversight of our assistance funds 
for Iraq very seriously, and we have benefited from the oversight and 
suggestions of the Special Inspector General for Iraq Reconstruction 
(SIGIR), Stuart Bowen. As Mr. Bowen has testified, SIGIR has never 
found instances of fraud or abuse of funds that were managed by the 
Department of State. In instances where SIGIR has pointed out room for 
improvement in the management of our assistance funds, we have taken 
action to make changes that ensure that our assistance funds are more 
effectively managed.
    As our assistance program to the Government of Iraq (GOI) shifts 
from large-scale, USG-managed infrastructure and reconstruction 
projects to programs of technical assistance and capacity-building, in 
accordance with the United States-Iraq Strategic Framework Agreement 
(SFA), the nature of project oversight will shift as well. Technical 
assistance to foreign governments requires a high level of oversight 
achieved through constant contact with GOI officials and frequent 
assessment of changes in GOI capacity and performance. This oversight 
process differs from the way oversight was ensured when the USG 
directly managed major construction projects that were funded in the 
past. USG technical assistance projects in Iraq are overseen by U.S. 
Department of State and USAID personnel in Baghdad with the help of 
local and international contract personnel with appropriate expertise.
    To ensure better coordination and oversight over USG assistance 
projects in Iraq, I have created a new deputy position at the U.S. 
Embassy in Baghdad for transition assistance, filled by Ambassador 
Patricia Haslach, who ensures that no assistance project is undertaken 
until the appropriate capacity for USG oversight is also in place. 
Ambassador Haslach reviews all projects to make sure they are 
maximizing the impact of our programs, avoiding duplication of effort, 
meeting the needs of the Iraqi people, and putting American taxpayer 
dollars to good use.

                                  <all>

</pre></body></html>
